                                               MINE SAFETY AND
                                               HEALTH ADMINISTRATION


Office of Inspector General—Office of Audit





                                               IN 32 YEARS MSHA HAS NEVER
                                               SUCCESSFULLY EXERCISED ITS PATTERN
                                               OF VIOLATIONS AUTHORITY




                                                                   Date Issued:   September 29, 2010
                                                                Report Number:      05-10-005-06-001
U.S. DEPARTMENT OF LABOR                                September 2010
OFFICE OF INSPECTOR GENERAL
Office of Audit                                         IN 32 YEARS MSHA HAS NEVER
                                                        SUCCESSFULLY EXERCISED ITS PATTERN OF
                                                        VIOLATIONS AUTHORITY
BRIEFLY…
Highlights of Report Number 05-10-005-06-001, to the    WHAT OIG FOUND
Assistant Secretary of Labor for Mine Safety and        MSHA has not successfully exercised its POV
Health.                                                 authority in 32 years. Administration of this
                                                        authority has been hampered by a lack of
WHY READ THE REPORT                                     leadership and priority in the Department across
On April 5, 2010, an accident at the Upper Big          various administrations.
Branch Mine-South in Montcoal, West Virginia
killed 29 miners. Concerns were raised about the        MSHA took 13 years to finalize POV regulations.
mine’s safety record and the Mine Safety and            Those regulations created limitations on MSHA’s
Health Administration’s (MSHA) process for              authority that were not present in the enabling
identifying mines with a pattern of violations          legislation and made it difficult for MSHA to place
(POV). Those concerns increased when MSHA               mines on POV status. For the next 17 years,
reported that an error in its POV computer              MSHA Districts performed POV analyses based on
application caused this mine to be omitted from a       individual interpretations of requirements, but
list of mines with potential patterns of violations.    never put any mine operator on POV status. In
                                                        2007, MSHA attempted to implement a
POV authority is an important tool that lets MSHA       standardized method based on quantitative data
take enhanced enforcement actions when a mine           for identifying potential POV mines. However, (a)
demonstrates recurring safety violations that could     the process was unreliable and (b) the criteria
significantly and substantially contribute to the       were complex and lacked a supportable rationale.
cause and effect of health and safety issues.
                                                        The audit also concluded that:
WHY OIG CONDUCTED THE AUDIT
The OIG conducted a performance audit to                •	 MSHA did not monitor the implementation of
determine:                                                 mine operators’ POV corrective action plans;
                                                        •	 Logic errors caused unreliable results from
•	 How MSHA had developed its POV rules,                   MSHA’s POV computer application;
   criteria, and procedures and implemented its         •	 Tests identified no deficiencies in the reliability
   POV authority;                                          of data MSHA used for POV screening; and
•	 Whether MSHA timely and consistently                 •	 Delays in testing rock dust samples could
   reviewed and monitored mine operators’ POV              cause delays in identifying safety hazards.
   corrective action plans;
•	 Whether MSHA’s POV computer application              WHAT OIG RECOMMENDED
   contained errors in addition to the one MSHA         We made 10 recommendations to the Assistant
   reported after the Upper Big Branch Mine-            Secretary for Mine Safety and Health. In summary,
   South accident;                                      we recommended that MSHA re-evaluate current
•	 Whether MSHA’s enforcement data was                  POV regulations; seek stakeholders input in
   sufficiently reliable to support accurate POV        developing new, transparent POV criteria; use
   analysis; and                                        system development life cycle techniques in
•	 The affects on the results of MSHA’s POV             creating any new POV related computer
   model from various changes in the criteria.          applications; and re-evaluate the standard for
                                                        timely completion of laboratory tests.
READ THE FULL REPORT
To view the report, including the scope, methodology,   The Assistant Secretary agreed with our
and full agency response, go to:                        recommendations and committed to developing
                                                        and implementing corrective actions.
http://www.oig.dol.gov/public/reports/oa/2010/05-10-
005-06-001.pdf
PAGE INTENTIONALLY LEFT BLANK 

                                                       U. S. Department of Labor – Office of Inspector General



Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1


Objective 1 — How did MSHA develop and implement its POV authority? ............. 4

         POV rulemaking stalled as stakeholders argued differing views on 

         implementation; MSHA curtailed its own POV authority and rarely tried to 

         use it..................................................................................................................... 4


Objective 2 — Did MSHA timely and consistently review and monitor mine 

              operators’ POV corrective action plans? ......................................... 14

         Operator corrective action plans were given little importance in MSHA’s 

         POV process. ..................................................................................................... 14


Objective 3 — Did MSHA’s POV computer application contain errors in addition 

              to the one identified and reported by MSHA after the Upper Big 

              Branch Mine-South accident?........................................................... 15

         Three logic errors caused unreliable results from POV computer 

         application. ......................................................................................................... 15


Objective 4 — Was MSHA’s enforcement data sufficiently reliable to support 

              accurate POV analysis?..................................................................... 19

         Data reliability tests discovered no deficiencies in accuracy or 

         completeness, but delays in laboratory test results are a problem. .................... 19


Objective 5 — How Would the Results of MSHA’s POV Model Be Affected by

              Changes in the Current Criteria? ...................................................... 22

         Some criteria significantly changed screening results and improvement 

         success. ............................................................................................................. 22


Recommendations ...................................................................................................... 24


Appendices
         Appendix A Background..................................................................................... 27

         Appendix B Objectives, Scope, Methodology, and Criteria ................................ 29

         Appendix C MSHA Documents Related to Pattern of Violations Authority ......... 35

         Appendix D MSHA’s Pattern of Violations Screening Criteria and Scoring 

            Model ........................................................................................................ 37

         Appendix E OIG Alert Memo – MSHA Set Limits on the Number of 

            Potential Pattern of Violations Mines to be Monitored................................... 41

         Appendix F MSHA’s Response to OIG Alert Memo ........................................... 43



                                                                                    MSHA’s Pattern of Violations Authority
                                                                                           Report No. 05-10-005-06-001
                                           U. S. Department of Labor – Office of Inspector General


Appendix G Technical Details of the Logic Errors, Criteria Misstatements,
   and Anomaly in the POV Computer Application............................................ 59

Appendix H 70 Unique POV Data Elements Tested and Related 

   Descriptions .................................................................................................. 63

Appendix I Integrated MSIS Data Flow Diagram .............................................. 69

Appendix J Affects on the Results of MSHA’s POV Model from Criteria 

   Changes........................................................................................................ 71

Appendix K Acronyms and Abbreviations .......................................................... 73

Appendix L MSHA Response to Draft Report .................................................... 75

Appendix M Acknowledgements......................................................................... 81





                                                                      MSHA’s Pattern of Violations Authority
                                                                             Report No. 05-10-005-06-001
                                    U. S. Department of Labor – Office of Inspector General


U.S. Department of Labor                Office of Inspector General
                                        Washington, D.C. 20210




September 29, 2010

                       Assistant Inspector General’s Report

Joseph A. Main
Assistant Secretary for
 Mine Safety and Health
U.S. Department of Labor
1100 Wilson Boulevard
Arlington, Virginia 22209

On April 5, 2010, an accident at the Upper Big Branch Mine-South in Montcoal, West
Virginia, resulted in the deaths of 29 miners. Concerns were immediately raised about
the mine’s safety record and the Mine Safety and Health Administration’s (MSHA)
process for identifying mines having a pattern of violations (POV). Those concerns were
heightened when, subsequent to the fatal accident, MSHA determined that a computer
error had caused the Upper Big Branch Mine-South to incorrectly be omitted from its
most recent list of mines with potential patterns of violations.

As part of our audit oversight responsibility and in response to a request from several
Members of Congress, the Office of Inspector General (OIG) audited MSHA’s use of its
POV authority. This authority is an important tool available to MSHA to take enhanced
enforcement actions when a mine operator demonstrates recurring safety violations that
could significantly and substantially contribute to the cause and effect of health and
safety hazards. See Appendix A for more information.

Specifically, the OIG conducted a performance audit to determine the history of MSHA’s
administration of its POV authority since its inception in 1977. To this end, we
conducted audit work to determine the following:

   1. How MSHA had developed its POV rules, criteria, and procedures and 

      implemented its POV authority; 

   2. Whether MSHA timely and consistently reviewed and monitored mine operators’
      POV corrective action plans;
   3. Whether MSHA’s POV computer application contained errors in addition to the
      one identified and reported by MSHA after the Upper Big Branch Mine-South
      accident;
   4. Whether MSHA’s enforcement data was sufficiently reliable to support accurate
      POV analysis; and
   5. The effects on the results of MSHA’s POV model from various changes in the
      criteria.



                                                               MSHA’s Pattern of Violations Authority
                                            1                         Report No. 05-10-005-06-001
                                      U. S. Department of Labor – Office of Inspector General


We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Our objectives, scope, methodology, and criteria are detailed in
Appendix B.

Results in Brief

Since passage of the Federal Mine Safety and Health Act of 1977 (Mine Act) more than
32 years ago, MSHA has not successfully exercised its POV authority. During that time,
MSHA had only once issued a pattern of violations notice to a mine operator.
Successful administration of this authority has been hampered by a lack of leadership
and priority in the Department across various Administrations, which in turn allowed the
rulemaking process to stall and fall victim to the competing interests of the industry, the
operators, and the unions representing the miners as to how that authority should be
administered.

Indeed, nearly 13 years passed from the enactment of the Mine Act in 1977 until
regulations for the administration of the POV authority were finally implemented by the
Department in 1990. However, those regulations created limitations on MSHA’s
authority that were not present in the enabling legislation and which made it difficult for
MSHA to place mines on POV status. According to MSHA officials, in the nearly 17
years that followed, MSHA districts, with limited guidance and promotion from the
national office, performed POV analyses based on individual interpretations of
requirements. In 2007, MSHA attempted for the first time to implement a standard
method based on quantitative data for screening and monitoring potential POV mines.
However, the criteria lacked a supportable rationale and the process proved to be
complex and unreliable.

In responding to our draft report, the Assistant Secretary for Mine Safety and Health
agreed that the pattern of violations process was flawed and stated that correcting the
problem was a high priority. He agreed with all of our recommendations and specifically
stated that MSHA intended to propose new POV regulations to simplify the criteria for
placing mines on a POV notice and to make the POV system a more effective tool in
identifying problem mines and changing operators’ behavior.

He expressed concern with our statement that MSHA was responsible for assuring that
mine operators protect workers from mining hazards and our conclusion that MSHA’s
exclusion of certain mines from POV analysis potentially placed miners at risk (see
page 10). Our statement and conclusion are based on the requirements of the Mine Act
that describe MSHA’s roles and responsibilities in setting safety and health standards,
identifying instances of non-compliance (including patterns of violations), and
compelling mine operators to take timely corrective actions. These are integral
components of the overall system for providing miners with a safe and healthy work


                                                           MSHA’s Pattern of Violations Authority
                                             2                    Report No. 05-10-005-06-001
                                                   U. S. Department of Labor – Office of Inspector General


environment. Whenever MSHA does not fulfill these responsibilities, miners may be at
increased risk.

The Assistant Secretary’s entire response is contained in Appendix L.

We made 10 recommendations to the Assistant Secretary for Mine Safety and Health.
In summary, we recommended that MSHA evaluate the appropriateness of revising
current POV regulations; seek stakeholder input to POV screening criteria; assure that
POV selection criteria are transparent and POV decisions are based solely on safety
and health conditions in mines; and ensure that any POV computer applications are
developed and maintained using system life cycle techniques.

RESULTS AND FINDINGS

Specific enforcement authority targeting mine operators with a pattern of significant and
substantial (S&S) violations of mandatory safety and health standards was defined in
Section 104(e) of the Mine Act. Congress intended this authority as “an effective tool to
protect miners when the operator demonstrates his disregard for the health and safety
of miners through an established pattern of violations.” 1 The Mine Act did not define
“pattern of violations,” but authorized the Secretary of Labor to make rules to establish
criteria for determining when a pattern existed.

To assist MSHA’s efforts to improve and make POV authority an effective tool for
ensuring safety in the Nation’s mines, it is important to understand what has been tried
in the past, what obstacles inhibited the usefulness of POV authority, and what
concerns must be addressed in a new system. Our audit work covered MSHA’s
development, implementation, and use of POV authority from its origin in the Mine Act
through May 10, 2010. We reviewed MSHA’s development and implementation of POV
authority by reviewing available documentation 2 related to MSHA’s POV rulemaking
processes (1980, 1985, and 1989/1990) as well as subsequent MSHA policy and
guidance materials. We reviewed the development of MSHA’s Pattern of Violations
Screening Criteria and Scoring Model (POV model), which was implemented in 2007.
We also examined the computer application used by MSHA to implement this model
and identify potential POV mines from 2007–2009. Finally, we performed tests to assure
that MSHA’s enforcement data would produce reliable results when screening for POV
mines and performed analyses to demonstrate the impacts of revising the current
criteria.




1
    Senate Report No. 95, 95th Congress, 1st Session, p. 33 (1977)
2
    We were limited in our ability to reconstruct events related to the development and implementation of POV authority
    because some pertinent historical records had been lost or destroyed and because many MSHA personnel involved
    in these events were no longer available.

                                                                            MSHA’s Pattern of Violations Authority
                                                            3                      Report No. 05-10-005-06-001
                                                          U. S. Department of Labor – Office of Inspector General


Objective 1 — How did MSHA develop and implement its POV authority?

          POV rulemaking stalled as stakeholders argued differing views on
          implementation; MSHA curtailed its own POV authority and rarely tried to
          use it.

MSHA started a rulemaking process in 1980, but aborted that process in 1985. MSHA
renewed efforts to create regulations in 1989, resulting in a final rule in 1990. MSHA
District personnel stated that during the nearly 17 years that followed, they annually
used enforcement data and their personal knowledge and experience to evaluate mines
for a pattern of violations. However, little documentation exists on how this was done
and no mine was placed on POV status during this time. In 2007, MSHA designed and
implemented a standard method based on quantitative data for identifying and
monitoring mines that showed a potential pattern of violations. Only once during that
entire span of time (2008) did MSHA issue a pattern of violations notice to a mine
operator. However, because the Federal Mine Safety and Health Review Commission
(Commission) subsequently modified some of the citations and orders that caused that
POV notice to be issued, MSHA did not enforce the order. MSHA has never
successfully exercised its POV authority in 32 years.

The following timeline summarizes the general chronology of MSHA’s efforts to develop
criteria and guidance related to its POV authority.

            Aug 1980                        May 1989                                           Jun 2007
          Proposed Rule                   Proposed Rule                                      Scoring Model
            Published                       Published                                       used for first time




     Nov 1977               Feb 1985             Jul 1990                                                          Jan 2011
  Passage of Mine         Proposed Rule          Final Rule                                                        Proposed 

    Act of 1977             Withdrawn            Published                                                        Rulemaking





Nearly 13 Years of Rulemaking: To identify the criteria and procedures that it would use
to notify an operator that a pattern of violations existed, MSHA published the first
Proposed Rule related to its POV authority in the Federal Register on August 15, 1980.
The Proposed Rule explained that a pattern would typically be shown by (1) an
unusually large number of S&S violations and little or no indication of improved
compliance or (2) a worsening trend of S&S violations indicating a greater than normal
risk of disaster, accidents, injuries, or illnesses. It made clear that the determination
would not be made mechanically, but would be a documented judgment involving both
quantitative and qualitative factors. In support of this concept, the proposed rule called
for a District Review Committee, consisting of at least three experienced MSHA
employees, to make recommendations to the District Manager about whether a pattern
of violations existed at any specific mine.

The Proposed Rule listed 10 factors to consider, at least annually, in identifying mines
that were developing a potential pattern of violations. These included the (1) number of

                                                                              MSHA’s Pattern of Violations Authority
                                                                 4                   Report No. 05-10-005-06-001
                                       U. S. Department of Labor – Office of Inspector General


S&S citations; (2) comparative number of S&S citations in successive inspections;
(3) number of citations and orders for unwarrantable failures; (4) number of withdrawal
orders for failure to abate S&S violations; (5) number of imminent danger orders
resulting from S&S violations; (6) number of recurring S&S violations of the same or
related standard; (7) number of violations concerning the submittal of reports or plans,
examinations, and training of personnel; (8) operator’s accident/injury/illness/fatality
incidence rate; (9) inspector’s statement for S&S citations and orders; and (10) number
of inspection days.

It also listed five criteria to be considered in determining whether a pattern of violations
existed, including (1) a chronic recurrence of S&S violations during one or more review
periods; (2) MSHA’s use of enforcement mechanisms other than 104(a) citations
(e.g., withdrawal orders, imminent danger orders) to address S&S violations during a
review period; (3) a history of accidents, injuries, illnesses, and fatalities at the mine;
(4) lack of management commitment to protecting the safety and health of miners; and
(5) extenuating circumstances beyond management’s control that strongly mitigate
other findings.

Although not required by the Proposed Rule, MSHA stated that it might, as a matter of
policy, alert affected mine operators that an initial screening had identified that
operator’s mine as a potential recipient of a pattern notice, unless the mine’s
compliance record improved. The Proposed Rule provided a 60-day public comment
period, ending October 14, 1980.

On February 8, 1985, more than 4 years after the public comment period ended, MSHA
published a withdrawal of the Proposed Rule in the Federal Register. MSHA explained
that comments it had received were generally in opposition to its implementation
because of its complexity, statistical orientation, and vagueness. Some comments
stated that it was inappropriate for MSHA to establish a POV regulation at a time that
the Commission was redefining the definition of a S&S violation through ongoing
litigation (Secretary of Labor v Cement Division, National Gypsum Co., 3 Federal Mine
Safety and Health Review Commission 822, April 1981).

In the same Federal Register notice, MSHA published an Advanced Notice of Proposed
Rulemaking (ANPRM) stating its intention to reconsider appropriate POV criteria and
procedures. In developing a new approach, MSHA believed POV criteria should focus
on the health and safety record of each mine rather than a comparison of individual
mines to industry-wide norms. MSHA envisioned simplified criteria in contrast to the
previously proposed rule. MSHA stated that it was focusing on two principal criteria:
(1) were S&S violations common to a particular hazard or did S&S violations throughout
the mine represent an underlying health and safety problem, and (2) is the mine on a
104(d) unwarrantable failure sequence, indicating that other enforcement measures had
been ineffective? MSHA asked for public participation and suggestions in formulating
POV criteria and procedures.




                                                           MSHA’s Pattern of Violations Authority
                                              5                   Report No. 05-10-005-06-001
                                      U. S. Department of Labor – Office of Inspector General


After another 4 years had elapsed, on May 30, 1989, MSHA published a second
Proposed Rule for POV in the Federal Register. In explaining this new Proposed Rule,
MSHA addressed some public comments received in response to the 1985 ANPRM.
Specifically, MSHA stated that it (a) did not believe it was appropriate to define what
constituted a “significant and substantial” violation in the rule, (b) believed it was
appropriate to base POV determinations on only final citations and orders, and
(c) believed that it was appropriate to warn operators of a potential pattern of violations
prior to issuance of a notice that a pattern existed because of the severity of the
sanctions and because it expected that reaching the level of compliance required to
terminate a pattern of violations notice “can be expected to be difficult at some mines.”
These latter two items were not required by the language in the enabling statute, but
amounted to self-imposed restrictions on POV authority by MSHA.

The proposed rule listed several factors to consider, at least annually, in performing an
initial screening of mines to evaluate for a pattern of violations. These included (1) the
mine’s history of S&S violations, closure orders for failure to abate S&S violations, and
imminent danger orders resulting from S&S violations; (2) enforcement actions other
than POV that have been used at the mine; (3) evidence of the operator’s lack of good
faith in correcting S&S violations; (4) an accident, injury, or illness record that
demonstrates a serious safety and health management problem; and (5) mitigating
circumstances, if any.

For mines identified by these initial screening criteria, a pattern of violations would be
established by then examining a history of S&S violations (1) of a particular standard,
(2) standards related to the same hazard, and (3) caused by an unwarrantable failure to
comply. Only final citations and orders were to be used to identify mines with a potential
pattern of violations.

The Proposed Rule intentionally did not quantify the violations or other factors that
would identify a POV mine because MSHA wanted to retain the “flexibility to individually
evaluate each mine’s compliance history and particular circumstances….”

In November 1989, MSHA conducted public hearings on the Proposed Rule in
Pittsburgh, Pennsylvania and Denver, Colorado. Nine witnesses representing the
mining industry and eight representing organized labor testified. The need for a
definition of “significant and substantial” was again raised by several mine industry
participants. MSHA responded that it would adhere to case law in defining S&S since
future case law might modify the meaning. Several participants spoke about MSHA’s
plan to use only final citations and orders. Industry supported the concept; organized
labor opposed it. MSHA defended the use of final citations and orders as providing a
clear notice to operators of which citations and orders MSHA would consider.

In publishing the Final Rule on July 31, 1990, MSHA again addressed concerns about
the use of only final citations and orders in the POV criteria. Some comments had
raised concerns that this limitation would motivate operators to challenge every S&S
citation and order, thus delaying MSHA’s application of its POV authority. However,


                                                          MSHA’s Pattern of Violations Authority
                                             6                   Report No. 05-10-005-06-001
                                     U. S. Department of Labor – Office of Inspector General


MSHA repeated its position that use of final citations and orders in the pattern criteria
provided clear notice to operators of which citations and orders would be used and that
“proper notice … is of paramount importance given the extraordinary nature of the
pattern notice.”

The resulting POV regulations (30 Code of Federal Regulations (CFR) 104) remained
unchanged from those presented in the Proposed Rule. They included the self-imposed
restrictions of (1) using only final citations and orders in determining a pattern of
violations and (2) creation of the “potential” pattern of violations warning to mine
operators and a subsequent period of further evaluation before exercising the POV
authority.

Nearly 17 Years of Decentralized Implementation: From the time POV regulations
became effective in October 1990 until mid-2007, POV screening was decentralized
and lacked a consistent, structured approach. MSHA District offices were responsible
for conducting the required annual POV screening of mines during this period, but never
put any mine operator on POV status. While District Managers reported that they had
kept files on POV activities during this period, most also stated that those records had
been destroyed under MSHA’s record retention policies.

During this period, MSHA Administrators for the Office of Coal Mine Safety and Health
(Coal) and Office of Metal/Nonmetal Safety and Health (Metal/Nonmetal) issued
occasional memos and policy letters related to POV to their District offices (see
Appendix C). The guidance generally reiterated the criteria contained in the regulations,
but also created some procedures unique to each program office. Districts were
required to annually conduct a screening of all mines to identify those that should
receive a potential POV notification. These screenings were to review each mine’s
compliance record for the past 24-month period and focus on repeated S&S violations
(a) of a particular standard, (b) of standards related to the same hazard, or (c) caused
by an unwarrantable failure to comply.

District Managers stated that they involved various District personnel in completing the
annual screenings, including Assistant District Managers, Staff Assistants, Program
Analysts, Field Office Supervisors, mine inspectors, and investigators. District Managers
cited various data sources for conducting the screening reviews including (1) computer
printouts showing the mine's compliance history relative to the types of enforcement
action noted in 30 CFR 104.2(a); (2) information in mine files such as prior inspection
reports and inspector's notes; (3) special assessment and enhanced assessment
action; (4) special investigation activities; and (5) other information resulting from
inspector debriefings.

In August 1992, MSHA identified 10 specific items to be reviewed for each coal mine in
conducting a POV screening (Coal Mine Safety and Health (CMS&H) Memo HQ-92-
373-S). After completing the screening, Coal District managers were to send a copy of
each mine’s compliance record to the mine operator (regardless of whether the District
Manager believed that a potential pattern of violations existed) to assist operators in


                                                         MSHA’s Pattern of Violations Authority
                                            7                   Report No. 05-10-005-06-001
                                                      U. S. Department of Labor – Office of Inspector General


designing programs to “reverse any unsatisfactory trends.” The transmittal was also to
inform the mine operator of the MSHA programs available to assist in improving the
mine’s compliance record.

In January 1993, MSHA required that each Coal District complete and send to the
Administrator a standard report summarizing the District’s POV activity (CMS&H Memo
HQ-93-025-S). It also required that all Potential POV letters be sent in draft to the
Administrator’s office for review before issuance to a mine operator.

In April 2002, the Acting Metal/Nonmetal Administrator sent each of his District
Managers a list of mines that might meet the criteria for issuance of a notice of potential
POV. The mines had been identified through a review of selected enforcement data
conducted by the Administrator’s office. District Managers were instructed to (a) review
their mine files for each of the listed mines and, after considering specific factors;
(b) prepare a warning list, (c) mail warning notices to the identified operators, (d) work
with the operators to address repeat violation problems, and (e) report to the
Administrator on their efforts. While some District Managers recalled receiving this
memo, they did not have records of any actions they had taken.

2007 POV Screening Criteria and Scoring Model: Following the fatal accidents at Sago,
Darby, and Aracoma mines in early 2006, MSHA began work on developing a national
POV screening process based on quantitative data. MSHA’s Internal Review Report on
the Sago mine accident had concluded that POV criteria were ineffective and
recommended that MSHA revise its POV screening criteria. The then Assistant
Secretary wanted a system that would (a) identify those mines that District Managers
saw as “problem mines,” (b) leave little room for subjectivity and criticism from mine
operators, and (c) afford mine operators “due process.”

To begin the process 3 , a group of MSHA Headquarters personnel met on several
occasions and discussed mine characteristics that might be used as the basis for a
more empirical model to identify mines showing a potential pattern of violations. The
group discussed different configurations of factors contained in the Initial Screening
portion of the POV regulation (30 CFR 104.2). This larger group was ultimately reduced
to a “committee of three,” including the then Assistant Secretary.

These three individuals conducted numerous “brainstorming” sessions on various
possible criteria. They (a) consulted provisions of the Mine Act (104(e)), the POV
regulations (30 CFR 104), and the preamble to that Final Rule; (b) reviewed inspection
and violation records for the previous 5-10 years; and (c) used computer applications to
manipulate and analyze various enforcement data. They tried different combinations of
criteria until they generated a list of mines that they believed MSHA could defend as
having been subjected to various enforcement methods, but still were not in
compliance.

3
    MSHA did not prepare or maintain records of this process. As a result, the information presented is based on
    interviews with two of the three MSHA officials involved in this project. The third participant, the then Assistant
    Secretary, has since retired and did not make himself available to be interviewed.

                                                                                MSHA’s Pattern of Violations Authority
                                                               8                       Report No. 05-10-005-06-001
                                     U. S. Department of Labor – Office of Inspector General



After finalizing the results of their efforts into the POV model, the committee briefed
other MSHA officials and representatives of the Office of the Solicitor (SOL). Some
District Managers recalled discussions and presentations at meetings about MSHA’s
decision to unveil and use new POV screening criteria. But generally, District Managers
said they first learned of the new POV criteria and a scoring model (Appendix D) when,
in June 2007, they received a list of mines in their District that had been identified to
receive a notice of a potential Pattern of Violations.

MSHA’s Office of Assessments used a computer application based on the newly
developed POV model on five separate occasions between June 2007 and September
2009 to generate a list of mines with a potential Pattern of Violations. MSHA officials
stated that the screening criteria remained unchanged throughout these five analyses.
However, our audit found that in its original use of the POV model, MSHA required that
a mine have at least two "elevated enforcement actions” (i.e. 104(b), 104(d), or 107(a))
issued during the most recent 12 months of the review period while in all subsequent
uses of the POV model this criteria was changed to at least two "elevated enforcement
actions” during the entire 24 month review period. MSHA officials were unaware that
this difference had existed and could not explain why the criterion had changed.

Initial Screening Performed by MSHA’s POV Computer Application: The five POV
analyses that MSHA conducted between June 2007 and September 2009 identified a
total of 89 mines as meeting the POV criteria.

                                                  Mines Identified
           POV           24-Month           by POV Computer Application
           Cycle     Period Reviewed                  Metal /
                                            Coal                   Total
                                                    Nonmetal
             1      04/01/05 – 03/31/07       6          2           8
             2      10/01/05 – 09/30/07      20          1          21
             3      04/01/06 – 03/31/08      15          4          19
             4      01/01/07 – 12/31/08      24          2          26
             5      09/01/07 – 08/31/09      14          1          15
           Total                                                    89




                                                         MSHA’s Pattern of Violations Authority
                                            9                   Report No. 05-10-005-06-001
                                      U. S. Department of Labor – Office of Inspector General


MSHA uses the following status codes to classify mines:

   Status Code                                  Definition
 Active             A mine that operates on a full-time basis. 

 Abandoned          A mine that will be abandoned for the foreseeable future. 

 Abandoned /        A mine that has been permanently abandoned and sealed.
 Sealed
 Intermittent       A mine that can reasonably be expected to operate sometime
                    during the year. These operation times vary due to the demand for
                    product or seasonal conditions.
 New Mine           A mine that has been assigned a Mine ID but no physical
                    development has begun.
 Non-Producing /    A mine where production has not yet begun or has ceased, but
 Active             employees perform some work at the mine.
 Temporarily Idle   A mine that has been temporarily idled (used by Coal only).

Workers can still be present in mines that are not in an “active” status. For example,
mines in a “non-producing/active” status may have workers performing maintenance or
other tasks in the mine. Mines in an “intermittent” status would likely have workers in the
mine at various times of the year.

It is important to note that in performing these initial screenings, MSHA automatically
excluded any mine not in an “active” status. As a result, eight additional mines that met
all of MSHA’s stated POV screening criteria were not considered for potential POV
evaluation during the five analyses because they were in a status other than “active.”
Specifically, 5 mines were in a “non-producing/active status” and 3 were in a
“temporarily idle” status. While it may be appropriate to remove a mine from the
potential POV list after the initial screening process based on the consideration of
non-quantitative factors, MSHA should not have excluded a mine during the initial
screening process simply because it was not in an “active” status.

MSHA’s responsibility is to assure that mine operators protect all workers from mining
hazards at all times, regardless of whether a mine operates on a full-time basis or is
producing any product at all. Whenever workers are present in a mine, the possibility of
safety hazards and a pattern of violations exist. Thus, MSHA’s exclusion of certain
mines from POV analysis by restricting its initial screening process to only mines in an
active status potentially placed workers at risk.

Based on the computer application results for each POV analysis, the Director of the
Office of Assessments then provided the relevant list of mines, including related data
from the POV model, to the Coal and Metal/Nonmetal Administrators. The
Administrators divided the lists by responsible district office and forwarded the
information to the appropriate District Managers. The Administrators’ typically
(a) identified the mine(s) to be reviewed, (b) provided the detailed data for each mine
related to the model’s selection criteria, (c) provided a copy of the POV model, and


                                                          MSHA’s Pattern of Violations Authority
                                            10                   Report No. 05-10-005-06-001
                                      U. S. Department of Labor – Office of Inspector General


(d) summarized the process to be followed, including a timeline of critical milestone
dates.

District Managers first reviewed their list of mines and could, if they deemed it
appropriate, provide a written recommendation to their Administrator that a mine not
receive a potential POV notification letter based on mitigating circumstances. As
discussed in the following section, such recommendations did occasionally occur for
various reasons. According to District Managers, they included other District personnel
(e.g., Assistant District Managers, Supervisors, Program Analysts, etc.) in evaluating
the mines prior to making this decision. The final decision to exclude an identified mine
rested with the Administrators.

Twenty-One Mines Excluded from Potential POV Notification: Of the 89 mines originally
identified by MSHA’s POV computer application from 2007-2009, 21 did not receive
potential POV notification letters for reasons summarized below.

                                                                                 # of Mines
    Reason for Excluding a Mine from Potential POV Notification
                                                                                 Excluded
 Quantity limits established by MSHA management                                      10
 Mine had closed or ceased production                                                 3
 Recent improvements based on potential POV notice in prior period                    6
 Recent improvements based on prior potential POV status at related                   1
 mine
 Rulings by the Commission changed potential POV finding                               1
       Total                                                                          21

As we reported in a separate Alert Memo to MSHA’s Assistant Secretary (see
Appendix E), 10 coal mines were inappropriately excluded because of limits established
by MSHA management. Additional audit work showed that these limits were only
established in Cycles 4 and 5. In Cycle 4, the Coal Administrator, with the concurrence
of the then Deputy Assistant Secretary for Operations sent a letter to his District
Managers instructing them to “… select no more than one mine on the initial screening
list per field office and a maximum of 3 mines per district.” In Cycle 5, the Coal
Administrator, after again conferring with the then Deputy Assistant Secretary for
Operations, sent a letter to his District Managers instructing them to “… select no more
than two mines on the initial screening list per field office.” Although the Metal/Nonmetal
Administrator used the same letter to his District Managers in Cycle 5, the limitation had
no practical impact because so few Metal/Nonmetal mines appeared on the potential
POV list. MSHA management viewed these limits as necessary because of resource
concerns about the extensive time and effort required to monitor each mine.

In responding to our Alert Memo (see Appendix F), the Assistant Secretary agreed that
certain mines may have been removed from potential POV lists in the past for reasons
other than appropriate consideration of health and safety conditions at those mines. He
stated his intention that “… decisions about PPOV and POV enforcement actions will be
based solely on what is best for the safety and health of the miners” and that “… MSHA

                                                          MSHA’s Pattern of Violations Authority
                                            11                   Report No. 05-10-005-06-001
                                                 U. S. Department of Labor – Office of Inspector General


will never be placed in a situation where a mine operator avoids being placed on a POV
because MSHA lacks resources.”

He also stated, however, that MSHA did not anticipate that all mine operators identified
through a quantitative or formulaic process would always be placed in POV status. He
reasoned that these decisions should always be a combination of initial screening
methods and a case-by-case consideration of potential mitigating factors.

Furthermore, he pointed out that MSHA continued to conduct an array of inspection
activities at the mines identified in our report to protect the safety and health of miners.
He added that MSHA had had significant inspector presence at all these mines since
the decisions not to place them in potential POV status. Nevertheless, he had requested
that MSHA inspect “every one of the producing coal and metal nonmetal mines that
were listed by the OIG as having not been placed in potential POV status following an
initial screening that identified them as PPOV eligible.” The subsequent inspections 4
resulted in MSHA issuing 63 104(a) citations (including 26 that were S&S) and 1 order.

MSHA also provided detailed information about recent inspection activities and results
at each of the mines that had been removed from potential POV lists. MSHA reported
that 8 of the 10 mines excluded from potential POV status because of resource
limitations had subsequently improved their rate of S&S citations and orders, while 2
mines actually had increased their rate of S&S citations and orders.

The OIG agrees that POV determinations should not be confined to purely quantitative
analyses. The experience, knowledge, and professional judgment of MSHA personnel
are important factors in all aspects of a successful enforcement program. However,
decisions based on available resources, rather than safety and health considerations,
are inappropriate and contrary to the spirit and letter of the Mine Act. It is also important
that MSHA define and implement a process for documenting all factors – both
quantitative and non-quantitative – used to make POV decisions.

Sixty-Eight Mines Sent Potential POV Notification Letters: For the five POV screenings
performed from 2007-2009, District Managers sent notification letters to 68 mine
operators. These letters provided the operators with the mine’s specific data related to
MSHA’s screening criteria and explained the POV evaluation process, including the
operator’s ability to (a) request a conference with the District Manager and (b) submit a
written plan for improving their rate of S&S violations.

If requested, the District Manager was required to conduct a conference with the
operator within 10 days. If the operator submitted a written corrective action plan, the
District Manager reviewed it and provided feedback, if necessary, to the operator (see
Objective 2, p. 14 for a further discussion of MSHA’s review of these corrective action
plans). Inspectors then conducted a “Regular Safety and Health Inspection” of the entire
mine within 90 days of the date the operator submitted the written corrective action plan.

4
    MSHA conducted inspection at fourteen mines. Six additional mines were not inspected because they had been
    placed in non-producing, temporarily idle, or abandoned status.

                                                                         MSHA’s Pattern of Violations Authority
                                                         12                     Report No. 05-10-005-06-001
                                                U. S. Department of Labor – Office of Inspector General



According to District Managers, they monitored these inspections along with their
Assistant District Managers and Field Supervisors. In one District that we visited, the
District Manager received and reviewed every citation (and the related inspector’s
notes) issued to the potential POV mines.

After the District had begun this inspection, MSHA’s Office of Assessments produced
and sent the District Offices a weekly report for each potential POV mine showing that
mine’s rate of S&S citations and orders since the beginning of the inspection. The report
also showed the two improvement metrics that MSHA tracked in determining whether a
mine had sufficiently improved to avoid POV status. Mines had to either reduce their
rate of S&S citations and orders (1) by 30 percent or (2) to the national average for
mines of a similar type and classification.

At the conclusion of the inspection, the District Managers provided a written
recommendation to their Administrator of whether each potential POV mine had met
improvement goals to avoid being placed in POV status.

Nine Mines Recommended for POV Notice: Of the 68 mines that received potential
POV notification letters, District Managers recommended that 9 be given a POV notice
after completing the evaluation period. However, for a variety of reasons listed below,
MSHA did not enforce its POV authority against any of these mines.

  # of
             Reason POV Recommendations Did Not Result in POV Notice
 Mines
   3	  S&S citations / orders modified as a result of review by and conferences with
       the Department’s SOL*
   2	  S&S citations / order modified by the Commission prior to issuance of POV
       notice
   1	  New mine owner was granted additional time to implement improvements
   2	  Metal/Nonmetal Administrator decided not to issue a POV notice based on
       non-quantitative factors (e.g., employee training, safety audits conducted by
       the mine operator)
   1	  S&S citations / orders modified by the Commission after issuance of POV
       notice
* Anticipating that mine operators would challenge MSHA’s determinations, SOL attorneys reviewed all S&S citations
  issued to those mines recommended by a District Manager for POV status. Conferences were held with the
  Administrator and District enforcement personnel to discuss any concerns that the SOL attorneys had about the
  appropriateness or defensibility of the S&S designation on a citation or order. These discussions sometimes
  resulted in citations or orders being modified, on the advice of the SOL attorneys, to remove the S&S designation.

Efforts to Redesign the POV Criteria and Procedures: In November 2009, MSHA began
internal discussions about the need to revise the pattern of violationscriteria and
procedures. In testimony before the U.S. House Committee on Education and Labor on
February 23, 2010, the Assistant Secretary stated:



                                                                          MSHA’s Pattern of Violations Authority
                                                         13                      Report No. 05-10-005-06-001
                                      U. S. Department of Labor – Office of Inspector General


       To encourage mine operators to take more responsibility for the safety
       and health of their workers, MSHA will evaluate ways to improve the use
       of effective mine safety and health management programs by mine
       operators, particularly those that may be subject to the application of the
       pattern of violations criteria pursuant to section 104(e) of the Mine Act.

       We are … reviewing the current pattern of violation criteria contained in
       [regulations] … considering a review of the pattern of violation process to
       determine whether our current approach is the best one for providing
       timely protection for miners.

In its Semiannual Regulatory Agenda posted April 26, 2010, MSHA described plans to
issue a Notice of Proposed Rulemaking by January 2011 to

       … review [pattern of violations] regulations with the goal of simplifying
       them to improve the process and to improve consistency in the application
       of the pattern of violations notice.

In summary, during the 32 years that MSHA has had Pattern of Violations authority, it
has never successfully used it against a mine operator. MSHA allowed the rulemaking
to stall as stakeholders argued differing views on implementation. Moreover, for many
years after regulations were in place MSHA relied on District personnel to interpret and
carry out those regulations. Only during the past few years had MSHA used a
standardized method based on quantitative data for identifying potential POV mines.
However, those analyses have proven to be complex and unreliable. Moving forward it
is imperative for MSHA to ensure that POV criteria and procedures are transparent and
well reasoned.

Objective 2 — Did MSHA timely and consistently review and monitor mine
              operators’ POV corrective action plans?

       Operator corrective action plans were given little importance in MSHA’s
       POV process.

POV Regulations give a mine operator “reasonable opportunity” (i.e., up to 20 days after
receiving notification of a potential pattern of violations) to “institute a program to avoid
repeated significant and substantial violations at the mine” (30 CFR 104.4). The
regulations do not require a written plan. However, MSHA’s policy, established through
the Pattern of Violations Procedures Summary described the regulation as an
opportunity to submit “… a written corrective action plan to institute a program to
avoid repeated significant and substantial violations at the operation” [text bolded for
emphasis]. Even though MSHA has not provided written guidance to either their own
personnel or to mine operators about the nature or content of these written corrective
action plans, we were told by MSHA officials (at both the national and district levels) that
plans should address the specific areas (e.g., ventilation, roof control, coal dust, etc.)
that caused a mine to be identified as having a potential pattern of violations.


                                                           MSHA’s Pattern of Violations Authority
                                             14                   Report No. 05-10-005-06-001
                                      U. S. Department of Labor – Office of Inspector General



If a mine operator did submit a written corrective action plan, MSHA’s subsequent
inspection of the mine was to be completed within 90 days “from the date the operator
submitted the corrective action plan.” However, if an operator did not submit a written
corrective action plan, MSHA was to complete an inspection within 60 days from the
date of the issuance of the notification of potential Pattern of Violations. Thus, by
submitting a written plan, no matter how minimal its content, a mine operator obtained
additional time before MSHA made a determination of the mine’s POV status.

Most mine operators chose to submit a written corrective action plan. But our review of
a sample of written corrective action plans submitted to two MSHA Coal districts
showed that plans accepted by MSHA ranged from a one-page memo with several brief
bulleted action statements to an 80+ page document.

While MSHA District personnel did review and discuss with mine operators the plans
they submitted, MSHA did not approve, disapprove or otherwise monitor these plans. In
addition, the nature and basis of MSHA’s reviews also varied based on each District
Manager’s interpretation of the POV criteria and process.

MSHA did not verify the implementation of an operator’s written POV corrective action
plan. In fact, District Managers told us that unlike other mine plans that an operator is
required to submit for MSHA’s approval (e.g., roof control plan, ventilation plan, training
plan, etc.) the corrective action plan is not an enforceable plan. Rather, MSHA’s
monitoring and evaluation of a mine it had identified for potential POV status was
primarily focused on the rate of S&S violations issued during a subsequent inspection of
the entire mine regardless of whether a corrective action plan was submitted or
implemented. As a result, MSHA could not demonstrate that these corrective action
plans had any role in subsequent declines in violation rates.

Since mine operators receive a benefit from submitting a written corrective action plan
(i.e., additional time to address safety and health violations), MSHA needs to assure
that the plan is more than a perfunctory exercise and consider whether these plans
should be required.

Objective 3 — Did MSHA’s POV computer application contain errors in addition to
              the one identified and reported by MSHA after the Upper Big
              Branch Mine-South accident?

       Three logic errors caused unreliable results from POV computer application.

MSHA’s POV computer application, implemented in 2007 in connection with the POV
model, contained logic errors, inconsistencies with the stated selection criteria, and one
other anomaly. These deficiencies occurred because the computer application was not
developed, tested, maintained, and documented in the disciplined and structured
manner normally associated with major computer applications. Because MSHA’s
enforcement data changes constantly and MSHA did not maintain historic copies of the


                                                          MSHA’s Pattern of Violations Authority
                                            15                   Report No. 05-10-005-06-001
                                                U. S. Department of Labor – Office of Inspector General


data, we could not run a corrected program against the same enforcement data that
MSHA used in completing the five POV analyses from 2007–2009. Therefore, it was not
possible to determine whether these computer application discrepancies affected the
specific outcomes of those analyses. However, we were able to demonstrate that
correcting these deficiencies produced significantly different results when run against a
“test” copy of MSHA’s enforcement data. Since MSHA does not intend to use the
current computer application for future POV analyses, these discrepancies should have
no direct impact on future POV analyses. However, it is important to understand the
types of problems that occurred in the past in order to prevent them in any future
development process. See Appendix G for the technical details of the items
summarized below.

Overview of MSHA’s POV Computer Application: MSHA’s POV model was based on a
computerized summary and analysis of selected enforcement data contained in MSHA’s
Standardized Information System (MSIS). Each night, MSHA creates a Data
Warehouse from information in MSIS. 5 The Data Warehouse is available through
MSHA’s network to authorized MSHA users for use in performing a wide variety of
analyses, including POV screening.

The POV computer application actually consisted of three components: (1) a Basic
query program (consisting of 46 individual sub-queries) and Repeat Violations query
program used to extract and summarize data from the Data Warehouse, (2) an
electronic spreadsheet that receives the extracted data and computes additional data
values based on the extracted data, and (3) filters in the electronic spreadsheet that
screen out mines that do not meet specified criteria. The program was designed to
produce a list of mines that meet all of MSHA’s initial screening and pattern criteria.

MSHA used the POV computer application to produce a list of potential POV mines on
five separate occasions for the 24-month periods ending:

      •    March 31, 2007               (Cycle 1)
      •    September 30, 2007           (Cycle 2)
      •    March 31, 2008               (Cycle 3)
      •    December 31, 2008            (Cycle 4)
      •    August 31, 2009              (Cycle 5)

MSHA used the same logic and programming syntax for all five cycles. However,
because MSHA could not locate a copy of the electronic spreadsheet produced in
Cycle 1, it was not possible to validate the formulas and filters used during that cycle.

On April 13, 2010, following the Upper Big Branch Mine-South accident, MSHA
discovered and reported a logic error in the Basic query program. MSHA reported the
error incorrectly excluded Upper Big Branch Mine-South from the list of potential POV
mines produced in Cycle 5, and did not affect any other underground coal mines.

5
    Prior to August 2008, MSHA updated its Data Warehouse on a weekly basis.

                                                                        MSHA’s Pattern of Violations Authority
                                                        16                     Report No. 05-10-005-06-001
                                       U. S. Department of Labor – Office of Inspector General



Logic Errors: In all five cycles for both Coal and Metal/Nonmetal, 4 of 46 sub-queries in
the Basic query and the Repeat query contained a value that could have caused a
vacated citation to be counted as if it were a valid, final citation. As a result, the program
could have over counted citations for a specific mine.

In all five cycles for both Coal and Metal/Nonmetal, 5 of 46 sub-queries in the Basic
query were missing a value that could have caused citations and orders associated with
a prior owner of the mine to be counted as if they were associated with the current
owner. As a result, the program could have overcounted citations for a specific mine.

In Cycles 3–5 for Metal/Nonmetal, the electronic spreadsheet formula intended to
provide the total number of S&S 104(d) final orders at each mine for the 24-month
review period incorrectly sums two columns that represent the 104(d) final orders that
may contain 104(d) final orders that are not S&S. As a result, the list of potential POV
mines may have included a mine that did not meet the screening criteria for S&S 104(d)
final orders.

Misstated Criteria: In all five cycles for both Coal and Metal/Nonmetal, the logic in 2 of
46 sub-queries in the Basic query did not count all 104(b) orders (failure to abate) as
required by one of MSHA’s stated screening criterion. The screening criterion stated
that a mine had to have “A minimum of two ‘elevated enforcement’ final orders of the
Commission, [i.e., type action is 104 (b), 104 (d) or 107 (a)] during the 24-month review
period.” But, the program logic only counted final 104(b) orders if they were issued to
replace an S&S citation or order.

Since the stated criterion did not restrict 104(b) actions to only those that replaced an
S&S citation or order, we initially concluded that the program was potentially excluding
104(b) orders that should have been counted. But MSHA officials stated that the
program logic correctly represented what MSHA had intended. According to MSHA, the
published criterion was misstated and should have been written as “A minimum of two
‘elevated enforcement’ final orders of the Commission, [i.e., type action is 104(b)
replacing an S&S citation, 104(d) or 107 (a)] during the 24-month review period.”

Similarly, in Cycles 2–5 for both Coal and Metal/Nonmetal, two separate formulas in the
electronic spreadsheet were inconsistent with MSHA’s stated screening criteria. One
screening criteria stated that a mine had to have at least 10 (surface and facility) or 20
(underground) S&S citations issued during the review period. Another stated that a mine
had to have at least 10 (surface and facility) or 20 (underground) S&S citations that
were final orders of the Commission during the review period. However, the formulas
that tested these values used the Boolean operator “greater than” (>). To correctly
match the stated criteria, the Boolean operator should have been “greater than or equal
to” (≥).

We initially identified this as a logic error. But MSHA officials stated that these formulas
also correctly represented what MSHA had intended the screening criteria to be.


                                                           MSHA’s Pattern of Violations Authority
                                              17                  Report No. 05-10-005-06-001
                                     U. S. Department of Labor – Office of Inspector General


According to MSHA, the published criterion was misstated and should have been
written as “more than” instead of “at least.”

Given MSHA’s statements, the queries and formulas used did not require correction.
However, these misstatements resulted in mine operators and the public having an
incorrect understanding of the screening criteria being used by MSHA to identify mines
with a potential POV.

Anomaly: In Cycles 3-5 for both Coal and Metal/Nonmetal, we identified one other
concern with an electronic spreadsheet formula that, while not an error in programming
logic, contains a risk of producing incorrect results.

The formula matches each mine identification number against mine identification
numbers in a separate list of mines having more than five S&S violations of the same
standard. This list of repeat violations is produced by the Repeat Violations query and
varies in length for each POV cycle. If a match is found, the number of repeat violations
is placed in the spreadsheet cell. For the formula to work properly, it must define the
location of the list of mines to be searched. In each spreadsheet used in Cycles 3 – 5,
the formula used the parameters of the list produced in Cycle 2, which resulted in the
formula defining an area that was larger than the actual list to be searched. Since the
defined area was larger than the actual list, no error resulted. However, had the Repeat
Violations query produced a list longer than the one used in Cycle 2, the formula would
have incorrectly ignored the data outside the stated parameters. This situation indicates
a lack of proper controls in maintaining the integrity of the spreadsheet formulas.

Logic Errors Impact Which Mines Are Put on Potential POV Lists: Because MSHA’s
Data Warehouse is updated daily and MSHA does not maintain historic copies of the
Data Warehouse, it was not possible to perform a POV analysis against the
enforcement data as it existed on the days that MSHA had performed its five past POV
analyses (Cycles 1-5). Therefore, we could not determine what, if any, specific changes
would have resulted from correcting the errors that we identified and re-performing
those analyses.

However, to demonstrate that these changes could produce results different from
MSHA’s uncorrected program, we ran both MSHA’s uncorrected program and the OIG’s
corrected program against a copy of the Data Warehouse as of May 10, 2010.

MSHA’s uncorrected program produced a list of 17 mines for potential POV evaluation –
 12 coal mines and 5 metal/nonmetal mines. The OIG’s corrected program, run against
the exact same data, produced a list of 21 mines for potential POV evaluation – 16 coal
mines and 5 metal/nonmetal mines.

The resulting lists of metal/nonmetal mines were identical. However, for the analysis of
coal mines, the MSHA list contained one mine that was not on the OIG list and the OIG
list contained five mines that were not on the MSHA list.



                                                         MSHA’s Pattern of Violations Authority
                                           18                   Report No. 05-10-005-06-001
                                      U. S. Department of Labor – Office of Inspector General


The magnitude and nature of the variations in results between the uncorrected and
corrected applications would likely fluctuate if run on various dates over a period of time.
This would be caused by changes in the enforcement data, specifically to the data
elements impacted by the identified errors. However, the test results show that the
unidentified logic errors had a potential to incorrectly include mines that had not met the
POV screening criteria or exclude mines that had met the POV screening criteria.

As MSHA moves forward with its plans to redesign the POV screening criteria and
procedures, it is critical that any related computer application provide accurate results.
To minimize the risks of unreliable results caused by programming errors, MSHA must
develop, test, maintain, and document any POV computer application in a structured
and disciplined manner.

Objective 4 — Was MSHA’s enforcement data sufficiently reliable to support
              accurate POV analysis?

       Data reliability tests discovered no deficiencies in accuracy or
       completeness, but delays in laboratory test results are a problem.

We found nothing in our various system and data test results to question the overall
reliability of the data used by MSHA to perform the initial screening and pattern of
violations determinations under its POV model. We did, however, identify delays in
MSHA’s testing of rock dust samples in underground coal mines that could cause
critical delays in MSHA identifying serious safety hazards.

Data Reliability: We successfully tested the data entry controls and a statistical sample
of data records for the key data elements that MSHA used in performing its POV
screenings from April 1, 2008–March 31, 2010. Nothing in the test results raised
concerns about the reliability of the data.

MSHA’s POV computer application used 70 unique data elements from MSHA’s Data
Warehouse to analyze each mine’s enforcement history against the screening criteria in
MSHA’s POV model (see Appendix H for a complete listing of these data elements).
Based on the manner and the number of times each data element was used by the
computer application, we determined that 55 of the 70 data elements were key in
determining program’s results. These key data elements were collected into the
integrated MSIS through five different input systems as summarized below.

                                                            # of Key
                      Input Entry Control Point
                                                         Data Elements
             IPAL (inspector laptop)                           30 

             MSIS User Interface - Enforcement Interface         2

             MSIS User Interface - Assessment Interface          6
             MSIS e-Gov Interface                              12
             MSIS User Interface - Part 50 Interface             5
                Total                                          55

                                                          MSHA’s Pattern of Violations Authority
                                            19                   Report No. 05-10-005-06-001
                                      U. S. Department of Labor – Office of Inspector General



Focusing on the 55 key data elements, we documented (a) the data processing steps
and data flows and (b) the control points, objectives, and techniques.

We successfully completed tests of these five input entry points for consistency,
effectiveness in validating data, and reporting of errors for correction prior to data
acceptance. The testing included value checking by entering blanks, non-numeric,
non-alpha, out-of-range, and illogical relationships.

We also successfully completed tests for accuracy and completeness of a random
statistical sample of active mine information covering the 55 key data elements,
including tracing to source information and/or initial input.

Delays in Testing Rock Dust Samples: While evaluating controls over various data
input sources, we identified occasional delays in MSHA’s testing of rock dust samples at
its National Air and Dust Laboratory (NADL) in Mt. Hope, West Virginia. While these
delays did not impact the overall reliability of enforcement data used in the POV model,
they did increase the risk that MSHA did not timely identify serious safety hazards in
underground coal mines.

Safety standards (30 CFR 75.402) require mine operators to “rock dust” mines to dilute
the coal dust in the mine atmosphere and prevent the propagation of coal dust
explosions. This typically involves dusting of underground areas with powdered
limestone. Rock dusting must assure that the incombustible content of coal dust, rock
dust, and other dust is maintained at prescribed minimum levels (30 CFR 75.403).

Since mine inspectors do not currently have a way to measure compliance with this
standard on-site during an inspection, they collect and send samples to the NADL.
Using a standard protocol, lab personnel tested the samples and reported the results to
the mine inspector via email. Based on the reported results, the inspector determined
whether a violation had occurred and a citation should be issued.

According to lab personnel, fluctuating workloads and the laboratory’s recent
participation in the National Institute for Occupational Safety and Health (NIOSH)
evaluation of a portable Coal Dust Explosibility Meter (CDEM), have affected how
quickly rock dust samples are tested after they are received. During the spring and
summer months, rock dust samples are normally tested and the results are reported to
mine inspectors in 2-3 days. However, during fall and winter months, inspectors collect
a higher volume of samples because cold air dries out mine surfaces and increases the
risk of explosions. During these periods of increased risk and workload, it could take 2-3
weeks to test and report results. MSHA has had no performance standard for the
timeliness of testing these samples. In addition, during MSHA’s participation in the
NIOSH project, normal lab tests were sometimes delayed until after samples could first
be tested with the CDEM.




                                                          MSHA’s Pattern of Violations Authority
                                             20                  Report No. 05-10-005-06-001
                                                   U. S. Department of Labor – Office of Inspector General


We have no evidence that coal dust contributed in any way to the accident at Upper Big
Branch Mine-South on April 5, 2010. But the handling of rock dust samples from Upper
Big Branch Mine-South illustrates the critical importance of completing these tests in a
timely manner 6 .

On March 15, 2010, a mine inspector collected 14 rock dust samples from Upper Big
Branch Mine-South during an inspection. NADL’s laboratory tests on those samples
were not completed for more than three weeks – this was two days after the
April 5, 2010 accident. The results showed that one of eight samples tested (six
samples contained too much moisture to test) did not meet regulatory standards. Based
on these results, MSHA issued an S&S citation on April 13, 2010. The chronology of
events related to these samples is summarized in the following table.

                                Chronology of Events
           Testing of Rock Dust Samples from Upper Big Branch Mine-South
       Date                                    Event
    03/15/2010 Mine inspector collected rock dust samples at mine
    03/16/2010 NADL received rock dust samples
    03/31/2010 MSHA personnel tested rock dust samples using CDEM as part of
                 NIOSH project
    04/05/2010 Accident at Upper Big Branch Mine-South
    04/06/2010 NADL personnel prepared rock dust samples for NADL testing
    04/07/2010 NADL personnel completed tests of rock dust samples
    04/08/2010 NADL transmitted rock dust test results to mine inspector via email
    04/13/2010 MSHA issued S&S citation for violation of 30 CFR 75.403

On July 29, 2010, in response to our concern that NADL lacked a performance standard
for timely testing and reporting of rock dust samples, the Coal Administrator directed lab
personnel to implement procedures to assure that rock dust samples were tested and
the results were reported to mine inspectors within 19 calendar days of being received
at the lab.

Although MSHA took prompt action on the concern we raised, 19 days does not convey
an appropriate level of urgency for completing tests related to a mine’s compliance with
a standard for preventing the propagation of coal dust explosions. If samples can be
tested in 2–3 days during portions of the year, it seems unreasonable to set a standard
that allows testing to take up to six times longer during the time of the year when the
associated risk is greatest.




6
    The OIG provided information we gathered on the Upper Big Branch Mine-South rock dust samples to MSHA’s
    Accident Investigation team, which is ultimately responsible for determining the cause of the accident. We also
    provided it to MSHA’s Internal Review team, which is examining MSHA’s actions with respect to this mine.

                                                                             MSHA’s Pattern of Violations Authority
                                                            21                      Report No. 05-10-005-06-001
                                      U. S. Department of Labor – Office of Inspector General


Objective 5 — How Would the Results of MSHA’s POV Model be Affected by
              Changes in the Current Criteria?

       Some criteria significantly changed screening results and improvement success.

It is MSHA’s responsibility to determine the criteria and procedures that best identify
mines having a pattern of violations. In an effort to provide information that may be
helpful in MSHA’s stated goal to revise the current criteria and procedures, we
conducted several “what if” analyses aimed at demonstrating the impact of various
changes to the current criteria on the number of mines (a) identified as having a
potential Pattern of Violations and (b) meeting MSHA’s improvement metrics.

Modifying Some Screening Criteria Significantly Affects Results: MSHA’s POV model
required that a mine meet all of the 10 defined screening criteria to be identified as
having a potential POV. Eliminating or modifying some of these individual criteria
significantly impacted the number of mines identified as having a potential POV, while
others had little impact.

We used a static copy of MSHA’s Data Warehouse (as of May 10, 2010) and MSHA’s
current POV model to produce a list of potential POV mines as a baseline. For each
scenario we eliminated or modified one or more of the existing criteria and ran the
revised computer application against the same Data Warehouse to produce a new list of
potential POV mines. We compared the results of each scenario against the baseline
results to measure the extent to which the number of mines identified increased or
decreased (see Appendix J).

Eliminating the POV model’s requirements for final orders resulted in the most
significant change. This modification (scenario 12) produced a list of 91 potential POV
mines versus the baseline list of 16. Reducing the period of enforcement actions
reviewed from 24 months to 12 months (scenario 11) produced significant changes in
both new mines being added to the baseline list (+20) and original mines dropped from
the baseline list (-12); 9 mines remained the same.

Other scenarios that produced significant increases in the number of mines identified for
potential POV analysis included (1) eliminating or reducing the ratio of citations/orders
issued in the second year of the review period to the first year of the review period
(scenarios 3 and 3a), (2) eliminating the comparison of a mine’s rate of S&S citations to
the national rate for similar mine (scenario 4), and (3) eliminating the requirement for at
least one final S&S citation for an unwarrantable failure (scenario 7).

Eliminating the requirement for at least 10 S&S citations (surface mines and facilities) or
at least 20 S&S citations (underground mines) had no effect on the results (scenario 1).

Fewer Potential POV Mines Met MSHA’s Improvement Metrics Over Extended
Evaluation Periods: While most potential POV mines met MSHA’s improvement metrics



                                                          MSHA’s Pattern of Violations Authority
                                            22                   Report No. 05-10-005-06-001
                                                 U. S. Department of Labor – Office of Inspector General


within the first inspection period following receipt of their notification letter, fewer mines
would have satisfied those standards if evaluated over a longer period of time.

MSHA monitored and evaluated the rate of S&S citations and orders at mines given a
potential POV notification for the period covering one complete inspection following the
notification. Mine operators must have met either of two metrics: (1) reduce the rate of
S&S citations and orders by at least 30 percent, or (2) reduce the rate of S&S citations
and orders to at least the national average for similar mines. In most cases, the first
standard was the easier one to meet. For the mines that received potential POV
notification letters from MSHA from 2007-2009 and whose rate of S&S citations and
orders were subsequently monitored by MSHA 7 , 61 out of 65 (94 percent) successfully
met one of the improvement metrics.

To evaluate whether mine operators sustained improvement levels beyond the first
inspection period, we used the same computer application used by MSHA to compute
each potential POV mine’s rate of S&S citations for two additional inspection periods.
The results indicate that as the evaluation period is extended, fewer mines satisfy the
required improvement metrics. After two inspection cycles, 56 out of 63 (89 percent) still
satisfied one of the improvement metrics. After three inspection periods, the success
rate decreased to 51 out of 60 (85 percent).

We performed a similar analysis for 8 of the 10 mines 8 that MSHA excluded from the
Potential POV lists because of limits set by MSHA management. Because they were not
sent potential POV notification letters, these mines were not subjected to the specific
POV monitoring or improvement metrics. After one inspection period, 3 of 8 (38 percent)
mines had met one of the improvement metrics. At the end of the second inspection
period, the success rate remained at 3 of 8 (38 percent). For the mines that had
completed a third inspection period, 3 of 6 (50 percent) met the improvement metrics.
Results indicate that a much lower percentage of these mines met MSHA’s
improvement metrics than those subjected to the potential POV evaluation process.

Changes to MSHA’s criteria for identifying potential POV mines can result in
significantly different results. Therefore, as MSHA moves to revise its POV enforcement
program it is critical for MSHA to ensure that POV selection criteria are transparent,
reasoned, and suitable for identifying mines whose owners demonstrate the “disregard
for the health and safety of miners through a pattern of violations” as intended by
Congress. In addition, MSHA should examine its current process for monitoring mine
operators to increase the likelihood that improvements are not temporary.




7
    MSHA did not evaluate mines that had ceased operations or that were under new ownership.
8
    Two mines were excluded from our analysis because they were under new ownership.

                                                                         MSHA’s Pattern of Violations Authority
                                                        23                      Report No. 05-10-005-06-001
                                     U. S. Department of Labor – Office of Inspector General


RECOMMENDATIONS

We recommend that the Assistant Secretary for Mine Safety and Health:

1. Evaluate the appropriateness of eliminating or modifying limitations in the current
   regulations, including the use of only final orders in determining a pattern of
   violations and the issuance of a warning notice prior to exercising POV authority.

2. Seek stakeholders’ input (e.g., miners, miner representatives, mine operators, etc.)
   in the development of POV screening criteria, but assure that the process, including
   rulemaking, is not stalled or improperly affected because of competing viewpoints.

3. Assure that POV selection criteria are sufficiently transparent to allow stakeholders
   to reasonably determine an individual mine’s status at any point in time.

4. Assure that POV decisions are based solely on the health and safety conditions at
   each mine.

5. Implement a standard process for documenting all factors – both quantitative and
   non-quantitative – used to make POV decisions.

6. Establish guidance on the preparation, review, and monitoring of mine operators’
   POV corrective action plans.

7. Eliminate the requirement that mines be in an “active” status to be screened for a
   pattern of violations.

8. Use system development life cycle techniques (analysis, design, test, implement,
   and maintain) to reduce the risk of errors in any POV-related computer application.

9. Re-evaluate the performance standard for timely completion of laboratory tests on
   rock dust or any other samples that yield enforcement related data, including
   addressing workload fluctuations and resources needs.

10. Examine its current process and metrics for monitoring the improvement of potential
    POV mines to increase the likelihood that improvements are not temporary.

We appreciate the cooperation and courtesies that MSHA personnel extended to the
OIG during this audit. OIG personnel who made major contributions to this report are
listed in Appendix M.



Elliot P. Lewis
Assistant Inspector General
    for Audit

                                                         MSHA’s Pattern of Violations Authority
                                            24                  Report No. 05-10-005-06-001
               U. S. Department of Labor – Office of Inspector General




Appendices 





                                   MSHA’s Pattern of Violations Authority
                     25                   Report No. 05-10-005-06-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                             MSHA’s Pattern of Violations Authority
               26                   Report No. 05-10-005-06-001
                                     U. S. Department of Labor – Office of Inspector General


                                                                                Appendix A
Background

The Mine Safety and Health Administration (MSHA) enforces compliance with
mandatory health and safety standards as a means to eliminate fatal accidents, reduce
the frequency and severity of nonfatal accidents, minimize health hazards, and promote
improved safety and health conditions in the Nation's mines. As required by the Mine
Act, as amended by the Mine Improvement and New Emergency Response Act of
2006, MSHA inspectors conduct recurring inspections of every mine; issuing citations or
closure orders when they observe violations. Citations and orders result in monetary
penalties to mine operators based on the nature and severity of the offense. During
calendar year (CY) 2009, MSHA inspections at the Nation's more than 14,000 surface
and underground mines resulted in more than 175,000 citations/orders and assessed
monetary fines of approximately $141 million.

Among the enforcement tools available to MSHA through the Mine Act is the authority to
take enhanced enforcement actions when a mine operator demonstrates a pattern of
S&S violations at a mine. After notifying a mine operator that such a POV exists, MSHA
has the authority to order the withdrawal of miners from areas of the mine affected by
any S&S violation until the violation is abated.

MSHA defined the implementation of POV authority through regulations (30 CFR 104)
in 1990. From 1990 until early 2007 MSHA applied the authority in a decentralized
manner through its district offices. In 2007, MSHA developed and implemented a POV
model on a national basis. Using an empirical analysis of enforcement data, the model
identified mines showing a potential pattern of violations based on MSHA’s selected
criteria.

On February 23, 2010, in testimony before the House Committee on Education and
Labor, MSHA’s Assistant Secretary stated that MSHA was reviewing the POV criteria
contained in the current regulations and was considering a review of its POV process.

On April 5, 2010, MSHA publicly announced an accident at Performance Coal
Company’s Upper Big Branch Mine-South in Montcoal, West Virginia resulted in the
deaths of 29 miners. Public and media scrutiny of the mine’s record of safety and health
violations raised questions about (a) why MSHA had not exercised its POV authority
against Performance Coal Company at Upper Big Branch Mine-South, and (b) whether
MSHA’s POV process was effectively identifying repeat violators.

On April 13, 2010, MSHA announced that an error in the computerized tools it had
developed to execute its POV model had caused Upper Big Branch Mine-South to
incorrectly be omitted from the most recent list of potential POV mines. This raised
additional questions about the accuracy of MSHA’s analysis and the reliability of the
underlying enforcement data.




                                                         MSHA’s Pattern of Violations Authority
                                           27                   Report No. 05-10-005-06-001
                                    U. S. Department of Labor – Office of Inspector General


In an April 15, 2010 letter, several Members of Congress requested that the OIG review
and report on MSHA’s development and implementation of its POV authority, including
the accuracy of the current POV model and its underlying data.

On April 27, 2010, testifying before the Senate Committee on Health, Education, Labor
and Pensions, MSHA’s Assistant Secretary concluded that “the current ‘pattern of
violations’ process is broken and must be fixed.”




                                                        MSHA’s Pattern of Violations Authority
                                          28                   Report No. 05-10-005-06-001
                                    U. S. Department of Labor – Office of Inspector General


                                                                               Appendix B
Objectives, Scope, Methodology, and Criteria

Objective

The OIG performed an audit to assess what progress MSHA had made in implementing
the Pattern of Violations (POV) authority contained in the Federal Mine Safety and
Health Act of 1977.

Specifically, we conducted audit work to determine (a) how MSHA had developed its
POV rules, criteria, and procedures and implemented its POV authority; (b) whether
MSHA timely and consistently reviewed and monitored mine operators’ POV corrective
action plans; (c) whether MSHA’s POV computer application contained errors in
addition to the one identified and reported by MSHA after the Upper Big Branch
Mine-South accident; (d) whether MSHA’s enforcement data was sufficiently reliable to
support accurate POV analysis; and (e) the affects on the results of MSHA’s POV
model from various changes in the criteria.

Scope

Our audit work covered MSHA’s development, implementation, and use of POV
authority from its inception in the Mine Act (1977) through May 10, 2010. Our work
related to the reliability of MSHA’s enforcement data included 70 data elements from
MSHA’s Data Warehouse that were used by MSHA’s POV computer application.

We performed audit work at MSHA’s National Office in Arlington, Virginia, MSHA’s Data
Center in Lakewood, Colorado, and in MSHA District offices in Morgantown, West
Virginia; Mt. Hope, West Virginia; and Dallas, Texas.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Methodology

To determine how MSHA developed POV regulations, criteria, and procedures, we
reviewed available documentation related to MSHA’s rulemaking processes (1980,
1985 and 1989/1990), including the proposed POV regulations, public comments, and
the final regulations. Limited records were available. MSHA’s Office of Standards,
Regulations, and Variances (OSRV), which coordinates MSHA’s regulatory work, is
responsible for maintaining appropriate records. OSRV was able to provide us with
inventory lists for 15 boxes of “non-permanent” records related to various MSHA



                                                        MSHA’s Pattern of Violations Authority
                                          29                   Report No. 05-10-005-06-001
                                                   U. S. Department of Labor – Office of Inspector General


rulemaking activities between 1977 and 1989, including those related to POV. However,
OSRV could not account for the whereabouts of the associated records.

OSRV had prepared these records to be sent to storage at the Federal Records Center,
but could not provide evidence that they had actually been sent. The Federal Records
Center had no evidence of having received the records. Even had these records been
transferred to the Federal Records Center, it is likely that they would have been
destroyed prior to our audit under guidelines of MSHA’s “Consolidated Records
Disposition Schedule” for Standards and Regulations. According to MSHA’s records
inventory lists, these non-permanent records included items such as a POV concept
paper, written public comments on the 1980 and 1985 proposed rules, an interagency
decision memo concerning MSHA’s withdrawal of the 1980 proposed rule, and
guidelines for designating violations as “significant and substantial.”

In addition, our search of 27 boxes of “permanent” MSHA records at the Federal
Records Center found nothing related to POV, even though one box’s inventory sheet
was labeled “Pattern of Violations.”

MSHA provided us with copies of transcripts from the two public hearings it held in 1989
as part of its POV final rulemaking process. It obtained these copies from the United
Mine Workers of America.

We also reviewed policy and guidance materials that MSHA issued after the
implementation of the POV regulations. We interviewed two of the three MSHA staff
involved in developing the POV model and summarized any related documentation 9 .

To determine how MSHA had implemented its POV authority for the period
October 1, 1990, to present, we conducted interviews of 16 of 17 MSHA District
Managers using a standard set of questions. We did not interview the District Manager
in Coal District 1 because no mine in his District had been identified by MSHA’s POV
model as having a potential POV and because the District Manager was leading
MSHA’s Internal Review of the Upper Big Branch Mine-South accident, so his
availability was very limited. We also visited Coal Districts 3 and 4 and the Metal and
Nonmetal South Central District, interviewed relevant District staff, and reviewed all
available records related to their POV activities. For potential POV mines MSHA
identified in its computer analysis, we determined the reasons MSHA did not send
potential POV letters to certain mines.

To measure the affects on MSHA’s current POV model from various changes to its
criteria, we developed and executed a series of “what-if” scenarios. We created a
baseline result by executing MSHA’s current POV computer application (corrected for
error identified in our audit) against a static copy of MSHA’s Data Warehouse (as of
May 10, 2010). For each “what-if” scenario, we eliminated or revised one or more of the


9	
     The third MSHA participant in this process was the then Assistant Secretary for Mine Safety and Health. Despite
     our repeated efforts, we were unable to obtain his participation in this audit.

                                                                            MSHA’s Pattern of Violations Authority
                                                           30                      Report No. 05-10-005-06-001
                                              U. S. Department of Labor – Office of Inspector General


existing selection criteria, ran the revised computer application against the same copy of
MSHA’s Data Warehouse, and compared the results against the baseline results.

To evaluate whether potential POV mines monitored by MSHA maintained improved
rates of S&S citations and orders beyond the one inspection period evaluated by
MSHA, we used MSHA’s computer application to calculated S&S rates for each
potential POV mine for two additional inspection cycles and compared the results
against the two improvement metrics used by MSHA.

To determine if MSHA was timely and consistently reviewing and monitoring mine
operators’ POV corrective action plans (CY 2007 to present), we interviewed the District
Managers from 16 of 17 MSHA districts that had notified at least one mine of potential
POV status during this period. These interviews summarized how these districts
interacted with the notified mine operators and how the districts monitored an operator’s
progress in improving the mine’s violation rate during the designated improvement
period. During site visits to MSHA Coal Districts 3 and 4, we reviewed mine corrective
action plans submitted by mine operators.

To determine if MSHA’s POV computer application contained unidentified errors, we
reviewed (a) the logic and syntax (i.e., queries) used to extract and summarize data
from MSHA’s historical enforcement data, (b) the formulas used in electronic
spreadsheets to perform tests and computations on the extracted data, and (c) the
filters used in electronic spreadsheets to apply MSHA selection criteria against the
analytical results for the five analyses that MSHA completed from 2007-2009 10 .

Specifically, to analyze the queries we (a) reviewed a user manual for MSHA’s query
software; (b) reviewed data dictionaries, data field attributes, and relevant handbook
sections provided by MSHA; (c) evaluated the underlying formulas; and (d) prepared
process flow charts. When necessary, we obtained explanations from knowledgeable
MSHA personnel. To analyze the formulas spreadsheets used in the POV analysis 11
and for the weekly reports 12 , we reviewed all formula logic and syntax based on
explanations from knowledgeable MSHA personnel on their intended purpose. To
analyze the spreadsheet filters, we compared MSHA’s POV selection criteria to the filter
logic and syntax. To demonstrate the impact of any identified errors on the mines
identified for potential POV notification, we created a baseline by executing MSHA’s
POV analysis against a copy of MSHA’s Data Warehouse produced by MSHA on
May 10, 2010. After making appropriate revisions to the queries, formulas, and filters we
executed the corrected POV analysis against the same set of data and compared the
results to the baseline.



10
   For the 24-month periods ending March 31, 2007, September 30, 2007, March 31, 2008, December 31, 2008, and
   August 31, 2009.
11
   MSHA was not able to provide the POV analysis spreadsheet for the 24 months ending March 31, 2007 because it
   did not maintain the original analysis, only the results.
12
   MSHA only used the weekly report queries and spreadsheet for the 24 month period ending August 31, 2009. For
   all previous POV analysis, MSHA used a query and report combination using the query software.

                                                                       MSHA’s Pattern of Violations Authority
                                                      31                      Report No. 05-10-005-06-001
                                      U. S. Department of Labor – Office of Inspector General


To determine the reliability of data used in MSHA’s POV analysis, we used an approach
consistent with the Government Accountability Office’s Assessing the Data Reliability of
Computer-Processed Data, (GAO-09-680G, July 2009, External Version I). Based on a
detailed review we judged 55 of the 70 data elements used in MSHA’s POV computer
application to be key in determining whether a mine demonstrated a potential pattern of
violations. The 55 key data elements reside in the Data Warehouse as a result of
various sources and input processes, including intermediary systems’ processing and
data bases prior to final update to the Data Warehouse (see Appendix I for related Data
Flow Diagram).

We performed the data reliability assessment, focused primarily on the 55 key data
elements, by (a) interviewing knowledgeable MSHA computer and program operations
personnel about the key data elements, processes and related controls; (b) identifying
the sources of the key data elements; (c) documenting the data processing steps and
data flows; (d) documenting the control points, objectives, and techniques; (e) testing
data entry control points for enforcement, assessments, and accident, injury,
employment and production data; and (f) selecting a random statistical sample of active
mine information covering the 55 key data elements to determine the accuracy and
completeness of the data, including tracing to source information and/or initial input.

We tested each primary input entry point covering the 55 POV key data elements for
consistency, effectiveness in validating data, and reporting of errors for correction prior
to data acceptance. The testing included value checking by entering blanks, non-
numeric, non-alpha, out-of-range, and illogical relationships.

We verified the accuracy and completeness of the 55 POV key data elements using a
sampling of active mine data covering the period April 1, 2008, through March 31, 2010.
We used a random sampling method with stratified design, where appropriate, to
provide effective coverage of the units and to obtain precise estimates of the
characteristics tested at a 95 percent confidence level and 5 percent error. Auditors
traced and compared values in key data element fields in MSHA Data Warehouse to
information from source documentation and/or initial input entry points and/or related
data bases (i.e., MSIS and Sungard data bases).

Criteria

Federal Mine Safety and Health Act of 1977, as amended

Miner Improvement and New Emergency Response Act of 2006

30 CFR Part 104 – Pattern of Violations

Federal Register, Volume 54, No. 102 (May 30, 1989) – Pattern of Violations Proposed
Rule

Federal Register, Volume 55, No. 147 (July 31, 1990) – Pattern of Violations Final Rule


                                                          MSHA’s Pattern of Violations Authority
                                             32                  Report No. 05-10-005-06-001
                                     U. S. Department of Labor – Office of Inspector General



Senate Report No. 95-181, Federal Mine Safety and Health Act of 1977 


MSHA Program Policy Manual, Volume III, Part 104, Pattern of Violations 

(Release III-22, February 2003) 


MSHA Pattern of Violations Procedures Summary 


MSHA Pattern of Violations Screening Criteria and Scoring Model 


Government Accountability Office, Standards for Internal Control in the Federal 

Government, November 1999 


National Institute of Standards and Technology Special Publication 800-53 Revision 2, 

December 2007. 


National Institute of Standards and Technology Special Publication 800-53 Revision 3, 

August 2009. 





                                                         MSHA’s Pattern of Violations Authority
                                           33                   Report No. 05-10-005-06-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                             MSHA’s Pattern of Violations Authority
               34                   Report No. 05-10-005-06-001
                                     U. S. Department of Labor – Office of Inspector General


                                                                                Appendix C
MSHA Documents Related to Pattern of Violations Authority

                 Effective /
  Document
                  Issued             Subject                 From                  To
    Type
                    Date
Program         04/08/91       Guidelines for the     Coal and              All MSHA
Policy Letter                  Implementation of      Metal/Nonmetal        employees
P91-III-1                      Pattern of             Administrators
                               Violations
CMS&H           08/05/92       Enforcement            Coal                  Coal District
Memo HQ-                       Strategy and           Administrator         Managers &
92-373-S                       Procedures,                                  Division
                               including Pattern of                         Chiefs
                               Violations
CMS&H           01/29/93       Pattern of             Coal                  Coal District
Memo HQ-                       Violations             Administrator         Managers
93-025-S                       Procedures and
                               Reporting to MSHA
                               Headquarters
Program         Re-issuance    Guidelines for the     Coal and              All MSHA
Policy Letter   of PPL P91-    Implementation of      Metal/Nonmetal        employees
P93-III-1       III-1          Pattern of             Administrator
                               Violations
Program         05/16/96       Interpretations and                          All MSHA
Policy                         Guidelines on                                employees
Manual, Vol                    Enforcement of the
III                            Mine Act – POV
CMS&H           07/26/96       Clarification on       Coal                  Coal District
Memo HQ-                       Enforcement            Administrator         Managers
96-107-S                       Procedures
CMS&H           05/13/97       Pattern of             Coal                  Coal District
Memo HQ-                       Violations             Administrator         Managers
97-050-S                       Procedures
Procedure       03/29/99       Review of              Coal                  Coal
Instruction                    Respirable Coal        Administrator         Enforcement
Letter I99-V-                  Mine Dust Citations                          Personnel
11                             for a Pattern of
                               Violations




                                                         MSHA’s Pattern of Violations Authority
                                            35                  Report No. 05-10-005-06-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                             MSHA’s Pattern of Violations Authority
               36                   Report No. 05-10-005-06-001
                                      U. S. Department of Labor – Office of Inspector General


                                                                                 Appendix D
MSHA’s Pattern of Violations Screening Criteria and Scoring Model

Criteria #1
At least 10 S&S Citations/Orders, at mines classified as Surface and Facility, issued
during the 24-month review period. At least 20 S&S Citations/Orders, at mines classified
as Underground, issued during the 24-month review period.

Criteria #2
At least two “elevated enforcement” actions, [i.e. type action is 104 (b), 104 (d) or
107(a)], issued during the 24-month review period.

Criteria #3
The ratio of Citation/Orders issued in the most recent 12 months of the review period to
the number of Citations/Orders issued during the previous 12 months of the review is
70% or greater.

Criteria #4
The mines’ rate of S&S Citations/Orders issued per 100 inspection hours during the
24-month review period is equal to or greater than 125% of the National rate of S&S
Citations/Orders issued per 100 inspection hours for that mine type and classification.

Criteria #5
The number of S&S Citation/Orders issued per 100 inspection hours during the last two
quarters is greater than the Industry Average for this mine type and classification OR
the number of elevated enforcement Citations/Orders issued per 100 inspection hours
during the last two quarters is greater than the Industry Average for this mine type and
classification.

Criteria #6
A minimum of two “elevated enforcement” final orders of the Commission, [i.e. type
action is 104 (b), 104 (d) or 107(a)] during the 24-month review period.

Criteria #7
At least one S&S 104 (d) issuance that became a final order of the Commission during
the 24-month review period.

Criteria #8
At least 10 S&S Citations/Orders, at mines classified as Surface or Facility, that are
final orders of the Commission during the 24-month review period. At least 20 S&S
Citations/Orders, at mines classified as Underground, that are final orders of the
Commission during the 24-month review period.


                                                          MSHA’s Pattern of Violations Authority
                                             37                  Report No. 05-10-005-06-001
                                                    U. S. Department of Labor – Office of Inspector General


Criteria #9
The information used to screen mines includes a raw weighted score for each
operation meeting the above criteria as follows:

     a. The number of S&S citations and orders issued per 100 Inspection Hrs. that
        became final during the 24-month review period times the weight assigned to this
        factor; plus

     b. the number of 104(b) (failure to abate) orders issued per 100 Inspection Hrs. for
        failure to abate an S&S issuance that that became final during the 24-month
        review period and multiplying by a factor of 5; plus

     c. the number of 104(d) (unwarrantable failure) citations and orders issued per 100
        Inspection Hrs. that became final during the 24-month review period and
        multiplying by a factor of 5; plus

     d. the number of 107(a) (imminent danger) orders issued 13 per 100 Inspection Hrs.
        during the 24-month review period and multiplying by a factor of 5.

This raw weighted score is increased by:

     e. 5%-20% for operations with injury rates above the national average for the same
        mine type and industry grouping as follows:

                                       Degree 1-4 Injury Rate (IR) Multipliers

        IR Greater than Nat'l.        IR Greater than 2 times        IR Greater than 3 times        IR Greater than 4 times
        Avg. and less than or         the Nat'l. Avg. and less       the Nat'l. Avg. and less       the Nat'l. Avg.
        equal to 2 times the          than or equal to 3 times       than or equal to 4 times
        Nat'l. Avg.                   the Nat'l. Avg.                the Nat'l. Avg.
                   5%                            10%                            15%                            20%

     f. 5%-20% for operations with injury severity rates (number of days lost X 200,000
        divided by the total work hours reported) above the national average for the same
        mine type and industry grouping as follows:

                                     Degree 1-4 Injury Severity Rate (ISR) Multipliers

        ISR Greater than Nat'l.       ISR Greater than 2             ISR Greater than 3             ISR Greater than 4
        Avg. and less than or         times the Nat'l Avg. and       times the Nat'l. Avg.          times the Nat'l. Avg.
        equal to 2 times the          less than or equal to 3        and less than or equal
        Nat'l Avg.                    times the Nat'l. Avg.          to 4 times the Nat'l.
                                                                     Avg.
                   5%                            10%                            15%                            20%


13
  Imminent Danger orders are not assessed and thus do not become “final orders” of the Commission. Therefore, the number of
Imminent Danger orders issued is used in this score.


                                                                                MSHA’s Pattern of Violations Authority
                                                             38                        Report No. 05-10-005-06-001
                                         U. S. Department of Labor – Office of Inspector General


 g. 5%-20% for operations with final S&S citations and orders per 100 inspection
    hours (Violations per Inspector hour (VPIH)) above the 24-month national average
    for the same mine type and industry grouping as follows:

                                             VPIH Multipliers

     VPIH Greater than       VPIH Greater than 2      VPIH Greater than 3       VPIH Greater than 4
     Nat'l. Avg. and less    times the Nat'l. Avg.    times the Nat'l. Avg.     times the Nat'l. Avg.
     than or equal to 2      and less than or equal   and less than or equal
     times the Nat'l. Avg.   to 3 times the Nat'l.    to 4 times the Nat'l.
                             Avg.                     Avg.
               5%                      10%                      15%                       20%


The final weighted score must be greater than or equal to the average weighted score
for all active mines of the same mine type and industry classification.

Criteria #10
Meet one of the following pattern criteria: (1) a history of repeated S&S violations of a
particular standard; (2) a history of repeated S&S violations of standards related to the
same hazard; or (3) a history of repeated S&S violations caused by unwarrantable
failure to comply. Only citations and orders that are final may be considered in
determining if these criteria have been met. For a Pattern of Violations review, mines
must have at least five S&S citations of the same standard that became final orders of
the Commission during the most recent 12 months.




                                                                MSHA’s Pattern of Violations Authority
                                                39                     Report No. 05-10-005-06-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                             MSHA’s Pattern of Violations Authority
               40                   Report No. 05-10-005-06-001
                                U. S. Department of Labor – Office of Inspector General


                                                                           Appendix E
OIG Alert Memo – MSHA Set Limits on the Number of Potential
Pattern of Violation Mines
                     Mines to be Monitore
                                 Monitored
                                         d




                                                    MSHA’s Pattern of Violations Authority
                                      41                   Report No. 05-10-005-06-001
U. S. Department of Labor – Office of Inspector General




                    MSHA’s Pattern of Violations Authority
      42                   Report No. 05-10-005-06-001
                              U. S. Department of Labor – Office of Inspector General


                                                                         Appendix F
MSHA’s Response to OIG Alert Memo




                                                  MSHA’s Pattern of Violations Authority
                                    43                   Report No. 05-10-005-06-001
U. S. Department of Labor – Office of Inspector General




                    MSHA’s Pattern of Violations Authority
      44                   Report No. 05-10-005-06-001
U. S. Department of Labor – Office of Inspector General




                    MSHA’s Pattern of Violations Authority
      45                   Report No. 05-10-005-06-001
U. S. Department of Labor – Office of Inspector General




                    MSHA’s Pattern of Violations Authority
      46                   Report No. 05-10-005-06-001
U. S. Department of Labor – Office of Inspector General




                    MSHA’s Pattern of Violations Authority
      47                   Report No. 05-10-005-06-001
U. S. Department of Labor – Office of Inspector General




                    MSHA’s Pattern of Violations Authority
      48                   Report No. 05-10-005-06-001
U. S. Department of Labor – Office of Inspector General




                    MSHA’s Pattern of Violations Authority
      49                   Report No. 05-10-005-06-001
U. S. Department of Labor – Office of Inspector General




                    MSHA’s Pattern of Violations Authority
      50                   Report No. 05-10-005-06-001
U. S. Department of Labor – Office of Inspector General




                    MSHA’s Pattern of Violations Authority
      51                   Report No. 05-10-005-06-001
U. S. Department of Labor – Office of Inspector General




                    MSHA’s Pattern of Violations Authority
      52                   Report No. 05-10-005-06-001
U. S. Department of Labor – Office of Inspector General




                    MSHA’s Pattern of Violations Authority
      53                   Report No. 05-10-005-06-001
U. S. Department of Labor – Office of Inspector General




                    MSHA’s Pattern of Violations Authority
      54                   Report No. 05-10-005-06-001
U. S. Department of Labor – Office of Inspector General




                    MSHA’s Pattern of Violations Authority
      55                   Report No. 05-10-005-06-001
U. S. Department of Labor – Office of Inspector General




                    MSHA’s Pattern of Violations Authority
      56                   Report No. 05-10-005-06-001
U. S. Department of Labor – Office of Inspector General




                    MSHA’s Pattern of Violations Authority
      57                   Report No. 05-10-005-06-001
U. S. Department of Labor – Office of Inspector General




                    MSHA’s Pattern of Violations Authority
      58                   Report No. 05-10-005-06-001
                                       U. S. Department of Labor – Office of Inspector General


                                                                                  Appendix G
Technical Details of the Logic Errors, Criteria Misstatements,
and Anomaly in the POV Computer Application

Queries

Our review of the queries used in MSHA’s POV computer application to extract and
summarize data from MSHA’s Data Warehouse identified the following logic errors:

   •   4 sub-queries in the Basic_Query_9-15-2009.qry file and 1 query in the Repeat
       S&S Finals by CFR 9-16-2009.qry file use the following function statement.

               (INQprod.tera_violations_vwj.last_action_code IN
               ('1stDemandReady', '2ndDemandPrinted', 'ApprovedForTreasury',
               'Chapter 11', 'Chapter 7', 'Chapter 7 Bankruptcy', 'Citation Vacated',
               'Delinquent', 'Final Order Date', 'JusticeSettlement', 'On Hold',
               'Paid', 'ProposeUncollectable', 'Recalled From Treasury',
               'RecommendTreasury', 'Treasury', 'Uncollectable'))

       The purpose of this function is to restrict the data extraction to only final
       citations/orders.

       1. The value "Citation Vacated" was incorrectly included in this function
          statement. Result = possible over count of relevant citations/orders.

   •	 5 sub-queries in the Basic_Query_9-15-2009.qry file are missing one of the
      following function statements.

          (INQprod.tera_violations_vwj.occurrence_date >=
          INQMSIS.mine_tbl.curr_ownr_beg_dt)

          or

          (INQprod.enf_time_tbl.date_worked >=
          INQMSIS.mine_tbl.curr_ownr_beg_dt)

       The purpose of these functions is to restrict the data extraction to transactions
       that relate to only the current mine owner.

       2. The “current owner only” dates were incorrectly excluded from this function
          statement. Result = possible over count of citations/orders.

Spreadsheet – Filters

Our review of the Excel spreadsheet filters used to identify mines that meet all of
MSHA’s POV criteria disclosed the following issues:


                                                            MSHA’s Pattern of Violations Authority
                                              59                   Report No. 05-10-005-06-001
                                  U. S. Department of Labor – Office of Inspector General



•	 Column BZ is used for POV criteria filter #1 in the Coal and Metal/Nonmetal POV
   analyses for the 24 months ending September 30, 2007, March 31, 2008,
   December 31, 2008, and August 31, 2009. The Excel formula used to generate
   the values in this column is

          =IF(BN{current row number}>BM{current row number},"Yes","No")

   3. The formula uses the Boolean operator “greater than” (>). However, to
      correctly represent the screening criteria for filter #1 which required at least
      10 S&S citations/orders issued for surface and facility mines or at least 20
      S&S citations for underground mines it should have used the Boolean
      operator “greater than or equal to” (>=).

      According to MSHA, the intent was to require more than 10 S&S
      citations/orders issued for surface and facility mines or more than 20 S&S
      citations issued for underground mines.

      Result = based on MSHA’s explanation of its intent, the formula used is
      correct. However, the criteria had been continually misstated since it was first
      published in June 2007.

•	 Column CF is used for POV criteria filter #7 in the MNM POV analyses for the 24
   months ending March 31, 2008, December 31, 2008, and August 31, 2009. The
   Excel formula used to generate the values in this column is

          =AL{current row number}+AM{current row number}

   4. The formula references and adds the wrong columns (AL and AM). The
      columns referenced contain data on the number of 104(d) final orders for the
      first 12 months (AL) and the second 12 months (AM) of the review period.
      However, since the screening criteria for filter #7 requires at least one S&S
      104(d) final order during the review period, the formula should reference
      Column BE (Final S&S 104(d) citations and orders for the 24 review period).

      Result = inclusion of mines with a final 104(d) order that was not a S&S final
      104(d) order.

      Note: The formula used in Column CF in the spreadsheet used for the Coal
            POV analysis during these same time periods is correct.

•	 Column CG is used for POV criteria filter #8 in the Coal and Metal/Nonmetal
   POV analyses for the 24 months ending September 30, 2007, March 31, 2008,
   December 31, 2008, and August 31, 2009. The Excel formula used to generate
   the values in this column is



                                                       MSHA’s Pattern of Violations Authority
                                         60                   Report No. 05-10-005-06-001
                                                U. S. Department of Labor – Office of Inspector General


                   =IF(M{current row number}>BM{current row number},"Yes","No")

          5. The formula uses the Boolean operator “greater than” (>). However, to
             correctly represent the screening criteria for filter #8 which required at least
             10 S&S citations/orders that are final for surface and facility mines or at least
             20 S&S citations/orders that are final for underground mines it should have
             used the Boolean operator “greater than or equal to” (>=).

              According to MSHA, the intent was to require more than 10 S&S
              citations/orders that were final for surface and facility mines or more than 20
              S&S citations that were final for underground mines

              Result = based on MSHA’s explanation of its intent, the formula used is
              correct. However, the criteria had been continually misstated since it was first
              published in June 2007.

      •	 Column CH is used for POV criteria filter #10 in the Coal and Metal/Nonmetal
         POV analyses for the 24 months ending March 31, 2008, December 31, 2008,
         and August 31, 2009. The Excel formula used to generate the values in this
         column is

                   =VLOOKUP(C{current row number},’Repeat Violations by
                   Mine’!$A$2:$C$754,3,FALSE)

          6. The formula incorrectly defines the length of the table to be referenced as
             ending in row 754. The actual length of the referenced table will change each
             time the POV analysis is executed. If the actual table length is less than or
             equal to 754 rows, no problem occurs. However, if the actual table length
             should exceed 754 rows, this formula will ignore potentially relevant data.

              Result = a mine with at least 5 final S&S citations/orders could incorrectly fail
              to meet this screening criteria.

              Note: It appears the use of row 754 as a table length is a carry-over from the
                    prior POV analysis performed for the 24 months ended
                    September 30, 2007 where 754 was the correct length of the table.

Results of Comparing Original versus Corrected POV Analysis

MSHA’s Data Warehouse is updated (i.e., changed) every night 14 with new information.
In order to compare results of different versions of MSHA’s POV computer application,
we required a static data set. At our request, MSHA provided us with a copy of its Data
Warehouse as of May 10, 2010. By executing the original POV computer application
and the OIG’s corrected version of the computer application against this static data set,

14
     Prior to August 2008, MSHA updated its Data Warehouse on a weekly basis.

                                                                        MSHA’s Pattern of Violations Authority
                                                       61                      Report No. 05-10-005-06-001
                                    U. S. Department of Labor – Office of Inspector General


we could be sure that differences in the results were caused by the changes in the
computer application, not changes in the underlying data.

   •	 Executing MSHA’s uncorrected POV analysis against the May 10, 2010 data
      warehouse identified 17 mines for potential POV evaluation – 12 coal mines and
      5 metal/nonmetal mines.
   •	 Executing the OIG’s corrected version of the POV analysis against the
      May 10, 2010 data warehouse identified 21 mines for potential POV evaluation –
      16 coal mines and 5 metal/nonmetal mines.
   •	 In comparing specific mines identified, for Metal/Nonmetal, the MSHA and OIG
      results matched exactly (same five mines). However, for Coal, the MSHA
      analysis identified one mine that was not identified in the OIG analysis and the
      OIG analysis identified five mines that were not in the MSHA analysis.

                              POV Screening Results
                           May 10, 2010 Data Warehouse
                     Uncorrected                    OIG Corrected
              POV Computer Application        POV Computer Application
                       Mine ID                          Mine ID
         1.          Coal mine A           1.         Coal mine A
         2.          Coal mine B           2.         Coal mine B
         3.          Coal mine C           3.         Coal mine C
         4.          Coal mine D           4.         Coal mine D
         5.          Coal mine E           5.         Coal mine E
         6.          Coal mine F           6.         Coal mine F
         7.          Coal mine G           7.         Coal mine G
         8.          Coal mine H           8.         Coal mine H
         9.           Coal mine I          9.         Coal mine I
        10.          Coal mine J
        11.          Coal mine K          10.         Coal mine K
        12.          Coal mine L          11.         Coal mine L
                                          12.         Coal mine M
                                          13.         Coal mine N
                                          14.         Coal mine O
                                          15.         Coal mine P
                                          16.         Coal mine Q
        13.    Metal/Nonmetal mine AA     17.   Metal/Nonmetal mine AA
        14.    Metal/Nonmetal mine BB     18.   Metal/Nonmetal mine BB
        15.    Metal/Nonmetal mine CC     19.   Metal/Nonmetal mine CC
        16.    Metal/Nonmetal mine DD     20.   Metal/Nonmetal mine DD
        17.    Metal/Nonmetal mine EE     21.   Metal/Nonmetal mine EE




                                                        MSHA’s Pattern of Violations Authority
                                           62                  Report No. 05-10-005-06-001
                                     U. S. Department of Labor – Office of Inspector General



                                                                                 Appendix H
70 Unique POV Data Elements Tested and Related Descriptions

    Attribute                             Field Description
                        (Descriptions taken from MSHA Data Warehouse Data
                                              Dictionary)

                                          Mine_tbl
 * Coal (C) or     Qualify with a 'C' if only coal mines are desired. Qualify with an 'M' if
 Metal (M) Mine    only Metal/nonmetal mines are desired.

    * Primary      Canvass code associated with the primary commodity code. In the
  Canvass Code     MSIS system, canvass code is known as an industry group code.
                   Values are 1, 2, 5, 6, 7, 8. For Coal breakdown: Canvass cd 1 –
                   Coal (Anthracite) SIC 12310. Canvass cd 2 – Coal (Bituminous) SIC
                   122200. Canvass cd 2 – Coal (Lignite) SIC 122100.

 * Controller ID   Identification number assigned by MSHA Assessments for a Legal
                   Entity acting as a controller of an operator. If this person is a
                   controller of an operator, this is the controller ID assigned to this
                   person.
 Controller Name Either the business name or a person's name for the legal entity.

   Mine Name     Mine name as designated on the Legal Entity ID Form (LID) or Mine
                 Information Form (MIF)
 * Current Owner Start date of the operating period at the mine.
   Begin Date

  * Mine Status    Unique code abbreviation for each mine status entered on the MIF.
                   For current mine status. See Mine Status table for mine history.
                   Original codes were 1 character. MSIS values are Active,
                   NonProdActive; Intermittent; Abandoned or AbandonedSealed;
                   NewMine; TempIdle. Use Data Values to select status.


    * Mine ID      Identification number assigned to the mine by MSHA

  * Mine Status    Values are Abandoned, Abandoned and Sealed, Active,
      Desc         Intermittent, New Mine, NonProducing and Temporarily Idled.

   * Mine Type     From the Legal ID (LID) form. The original codes were one
                   character. The MSIS types are Facility, Surface or Underground.

  * Operator ID    ID of the operator from the LID




                                                          MSHA’s Pattern of Violations Authority
                                            63                   Report No. 05-10-005-06-001
                                       U. S. Department of Labor – Office of Inspector General


* Operator Name The latest operator name as updated by a LID or MIF. If the last
                action is a LID, it will be updated if Assessments updates the name
                when it is approved. A new MIF will subsequently overwrite the
                mines operator name.
   Office Code      MSHA code that identifies the office to which the mine is assigned.
                    This is entered on the Mine Information Form (MIF).

   * Primary        Unique code abbreviation for the primary industry group code for a
 Canvass Code       mine.
     Desc
                                         Office_tbl
  District Name     District name.

   Office Code      MSHA code that identifies each office.

   Office Name      The name of the office.

                                 ACC_INJ_TBL
 * Accident Date Date the accident/injury/illness occurred.

Schedule Charge Charge in days lost for any permanent injury/illness. Example: 6000
    (Days)      days for a death, 2400 days for the loss of a foot at the ankle.

  Contractor ID     Identification number assigned by MSHA for contractors working at
                    a mine. It is the contractor ID of the contractor or contractor
                    employee involved in the accident/injury/illness.
    Days Lost       Actual days lost from work.

* Degree of Injury Code identifying the degree of injury/illness to the individual: (00)
     Code          Accident only; (01) Fatality; (02) Perm total or perm partial disability;
                   (03) Days away from work only; (04) Days away from work and
                   restricted activity; (05) Days restricted activity only; (06) Injuries that
                   do not result in death, or days away from work, or days of restricted
                   work activity; (07) Occupational illnesses; (08) Fatal and non-fatal
                   injuries due to the natural causes; (09) Fatal and non-fatal injuries to
                   non-employees; (10) All other cases, including first aid. View
                   "Degree of Injury Codes" for possible updates.

    * Mine ID       Identification number assigned to the operation by MSHA. It is the
                    mine ID of the mine where the accident/injury/illness occurred.

                                    ENF _ TIME_ TBL
 * Activity Code    Activity Code for these hours reported. If an Event is also specified,
                    this Activity Code must match that of the Event. Item #6 on the
                    Weekly Time and Activity Data form.


                                                           MSHA’s Pattern of Violations Authority
                                              64                  Report No. 05-10-005-06-001
                                    U. S. Department of Labor – Office of Inspector General


     AR No.       AR number of the employee for whom the time data was submitted.
                  Metal AR and ROE numbers will be 4 characters and Coal will be 5
                  characters.
 * Date Worked    The date the hours were worked for this activity.

  * Event No.     Event number related to the inspection and activity.

   * Mine ID      Mine ID where inspection took place.

 * Coal (C) or    Qualify with a 'C' if only coal information is desired. Qualify with an
 Metal (M) Mine   'M' if only Metal/nonmetal mines is desired. Leave blank to retrieve
                  data for both types of mines.
* Inspection Time Total of fields 14a thru 14e on Weekly Time and Activity Data form.
                  Total of On-Site Inspection Time (MNM), MMU Pit Time (Coal),
                  Outby (Coal UG Mines), Surface Area Time (Coal) and C/O Writing
                  On Site (MNM, Coal) Reviews (Coal),
  * Task Code     A task code for personnel who perform a variety of tasks that may
                  not be directly related to their title or to identify specialist activity
                  associated with an event. Item #11on the Weekly Time and Activity
                  Data form.
                                        Insp_tbl
* Insp Acty Code Code used to identify the type of enforcement activity. See Common
                 Table "Insp Activities" for more detail. Coal activity codes are
                 characters and Metal activity codes are numbers.
* Beginning Date Start date of the inspection.

 * Ending Date    Inspection close out date.

  * Event No.     Unique number identifying an inspection (event).

   * Mine ID      Identification number assigned to the operation by MSHA.

                               MINE_EMPROD _ TBL
   Employees      Average number of employees reported by the operator for the
                  applicable quarter, subunit and year beginning with 1990.

 Hours Worked     Total employee hours reported by the operator during the quarter
                  for this subunit, year and quarter.

   Production    The single-digit quarter for which the employment and production
    Quarter      data is reported.
*Production Year The 4-digit year of the employment/production data.

   * Mine ID      Identification number assigned to the operation by MSHA.


                                                         MSHA’s Pattern of Violations Authority
                                           65                   Report No. 05-10-005-06-001
                                     U. S. Department of Labor – Office of Inspector General


                          Tera _violations _ vwj
* CFR Standard The 30 CFR Standard that the operator files to modify.
    Code

 * Citation No.    Preassigned citation/order/safeguard number of the initial action.
                   Citation number is unique for non-history record

 * Citation Type   Specifies the type of Citation: Citation, Order. Use Data Values to
      Code         select code.
  * Coal (C) or    One character indicator. (C) Coal or (M) Metal.
    Metal (M)
  * Final Order    Date that this Assessment becomes a Final Order. This date is set
      Date         when the CRR date (Certified Return Receipt date) is set. Note that
                   this can be a projected future date that is set as soon as the CRR is
                   entered.
  * Last Action    Last action taken against this violation. Listed in common table Last
     Code          Action Codes. Use Data Values to select code.

   * Mine ID       Mine ID at which the violation is issued.

*Occurrence Date Date of the occurrence.

* Primary Action Primary Section of Act which gives the MSHA Inspector the
     Code        authority to take the action specified by this Issuance. More than
                 one type of action may be cited. Use Data Values to select code.

 * Sig and Sub     An indicator as to whether or not the gravity is determined by the
   Indicator       inspector to be S&S.

 Violator Name   The name of the Operator or Contractor at the time of the
                 Assessment.
 * Violator Type Specifies the type of Violator, either Operator, Contractor, Agent or
      Code       Miner (listed in common table Violator Type Codes). Use data
                 Values to select code.

                                        Viol_tbl
    * AR No.       Authorized Representative (AR) number of the MSHA
                   representative who issued the citation or order. Metal AR and ROE
                   numbers will be 4 characters and coal numbers will be 5 characters.
                   However, if an employee transfers from Coal to Metal, they will
                   continue to use the 5-character AR number.
 AR Office Code Organization code for the issuing AR (Coal only).

   * Type of       Type of issuance: Citation, Order, Safeguard or Notice.
   Issuance



                                                         MSHA’s Pattern of Violations Authority
                                           66                   Report No. 05-10-005-06-001
                                       U. S. Department of Labor – Office of Inspector General


  *Contractor ID     Code identifying the contractor to whom the citation or order was
                     issued.
   * Event No.       Event number of the inspection during which the citation/order was
                     issued.
 * Injury /Illness   Value assigned to a violation for gravity of injury. Measure of
                     seriousness of violation being cited as measured by severity of the
                     injury or illness to persons if accident were to occur due to the
                     conditions of the violation: Fatal, LostDays, NoLostDays or
                     Permanent.
  * Date Issued      Date the citation or order was issued by the MSHA inspector.

  * Time Issued      Time (24 hour) the citation or order was issued by the MSHA
                     inspector.
   * Likelihood      Likelihood of an injury occurring due to the cited condition: Highly,
                     NoLikelihood, Occurred, Reasonably or Unlikely.

   * Negligence      Codes representing the degree of negligence that the Inspector
                     assigned to the Violator due to the Violation: HighNegligence,
                     LowNegligence, ModNegligence, NoNegligence or Reckless.
* Number Affected Number of persons affected by the cited condition.

    * 30 CFR         Part/section of Title 30 CFR violated.

  * Sig and Sub S&S designation (Y or N).
   Designation
 * Type Action 1 Section of Act which is authority for the action taken.

    * Type of        Code identifying the type of termination: Issued, ReplacedByOrder,
   Termination       Terminated or Vacated.
  * Violation No.    Citation/order number.

 * Violator Type     Agent, Contractor, Miner, or Operator


* = Key Data Element for POV analysis.




                                                           MSHA’s Pattern of Violations Authority
                                             67                   Report No. 05-10-005-06-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                             MSHA’s Pattern of Violations Authority
               68                   Report No. 05-10-005-06-001
                               U. S. Department of Labor – Office of Inspector General


                                                                           Appendix I
Integrated MSIS Data Flow Diagram




                                                   MSHA’s Pattern of Violations Authority
                                     69                   Report No. 05-10-005-06-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                             MSHA’s Pattern of Violations Authority
               70                   Report No. 05-10-005-06-001
                                    U. S. Department of Labor – Office of Inspector General


                                                                                 Appendix J
Affects on the Results of MSHA’s POV Model from Criteria Changes

                                                        # of Potential POV Mines
                                                         Compared to Baseline
              Description of Scenario
                                                    Total Same Added Dropped
                                                    Mines Mines Mines        Mines
     Baseline – MSHA’s Criteria                      21
1    Eliminate ONLY Criteria #1                      21         21         0            0
2    Eliminate ONLY Criteria #2                      23         21         2            0
3    Eliminate ONLY Criteria #3                      28         21         7            0
3a   Reduce Criteria #3 to 50%                       27         21         6            0
4    Eliminate ONLY Criteria #4                      28         21         7            0
4a   Reduce Criteria #4 to 110%                      23         21         2            0
4b   Increase Criteria #4 to 140%                    15         15         0            6
5    Eliminate ONLY Criteria #5                      23         21         2            0
6    Eliminate ONLY Criteria #6                      22         21         1            0
6a   Reduce Criteria #6 to 1                         23         21         2            0
6b   Increase Criteria #6 to 3                       19         19         0            2
6c   Reduce Criteria #6 analysis period to 12        17         17         0            4
     mos.
6d   Reduce Criteria #6 analysis period to 12        18         18         0            3
     mos. and reduce filter criteria to 1.
7    Eliminate ONLY Criteria #7                      30         21         9            0
7a   Reduce Criteria #7 analysis period to 12        16         16         0            5
     mos.
8    Eliminate ONLY Criteria #8                      23         21         2            0
9    Eliminate ONLY Criteria #9                      25         21         4            0
9a   Reduce Criteria #9 multiplier to 3              20         20         0            1
9b   Reduce Criteria #9 review period to 12          22         20         2            1
     mos. in the raw weighted score calculation
9c   Reduce Criteria #9 ranges for multiplier to     22         21         1            0
     (>1, =<1.5) (>1.5, =<2) (>2, =<2.5)
9d   Reduce Criteria #9 multiplier to 3, analysis    22         20         2            1
     period to 12 mos. and multiplier ranges as
     in 9c.
10   Eliminate the “Active” status requirement       25         21         4            0
11   Reduce review period to 12 mos.                 29         9         20           12
12   Use only “Issued” orders/citations in all       91         19        72            2
     criteria




                                                          MSHA’s Pattern of Violations Authority
                                           71                    Report No. 05-10-005-06-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                             MSHA’s Pattern of Violations Authority
               72                   Report No. 05-10-005-06-001
                                    U. S. Department of Labor – Office of Inspector General


                                                                              Appendix K
Acronyms and Abbreviations


ANPRM            Advanced Notice of Proposed Rulemaking

CDEM             Coal Dust Explosibility Meter

CFR              Code of Federal Regulations

CMS&H            Coal Mine Safety and Health

Coal             Office of Coal Mine Safety and Health

CY               Calendar Year

Commission       Federal Mine Safety and Health Review Commission

IR               Injury Rate

ISR              Injury Severity Rate

Mine Act         Federal Mine Safety and Health Act of 1977

Metal/Nonmetal   Office of Metal/Nonmetal Safety and Health

MSHA             Mine Safety and Health Administration

MSIS             MSHA Standardized Information System

NADL             National Air and Dust Laboratory

NIOSH            National Institute for Occupational Safety and Health

OIG              Office of Inspector General

OSRV             Office of Standards, Regulations, and Variances

POV              Pattern of Violations

POV model        Pattern of Violations Screening Criteria and Scoring Model

S&S              Significant and Substantial

SOL              Office of the Solicitor

UBB              Upper Big Branch Mine-South

VPIH             Violations per Inspector hour



                                                         MSHA’s Pattern of Violations Authority
                                           73                   Report No. 05-10-005-06-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                             MSHA’s Pattern of Violations Authority
               74                   Report No. 05-10-005-06-001
                                U. S. Department of Labor – Office of Inspector General


                                                                         Appendix L
MSHA Response to Draft Report




                                                    MSHA’s Pattern of Violations Authority
                                      75                   Report No. 05-10-005-06-001
U. S. Department of Labor – Office of Inspector General




                    MSHA’s Pattern of Violations Authority
      76                   Report No. 05-10-005-06-001
U. S. Department of Labor – Office of Inspector General




                    MSHA’s Pattern of Violations Authority
      77                   Report No. 05-10-005-06-001
U. S. Department of Labor – Office of Inspector General




                    MSHA’s Pattern of Violations Authority
      78                   Report No. 05-10-005-06-001
U. S. Department of Labor – Office of Inspector General




                    MSHA’s Pattern of Violations Authority
      79                   Report No. 05-10-005-06-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                             MSHA’s Pattern of Violations Authority
               80                   Report No. 05-10-005-06-001
                                    U. S. Department of Labor – Office of Inspector General


                                                                             Appendix M
Acknowledgements

Key contributors to this report were Charles Allberry (Audit Director), Keith Galayda
(IT Audit Director), Stephen Fowler, Michael Kostrzewa, Robert Swedberg, Jennifer
Leung, Melvin Reid, Susan Rosenblum, Benjamin Brady, Samantha Cash-Johnson,
Donald Evans, Richard Bryan, Aaron Talbert, Elizabeth Garcia, Norlean (Renee) Kelly,
and Jennisa Paredes.




                                                        MSHA’s Pattern of Violations Authority
                                          81                   Report No. 05-10-005-06-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                             MSHA’s Pattern of Violations Authority
               82                   Report No. 05-10-005-06-001
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

Online:	      http://www.oig.dol.gov/hotlineform.htm
Email:	       hotline@oig.dol.gov

Telephone:	   1-800-347-3756
              202-693-6999

Fax:          202-693-7020

Address:      Office of Inspector General
              U.S. Department of Labor
              200 Constitution Avenue, N.W.
              Room S-5506
              Washington, D.C. 20210
